<html>
<title> - ALTERNATIVE MEDICINES</title>
<body><pre>[Senate Hearing 106-742]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-742
 
                         ALTERNATIVE MEDICINES

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations





 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
63-946 cc                   WASHINGTON : 2000
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402



                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
SLADE GORTON, Washington             ERNEST F. HOLLINGS, South Carolina
JUDD GREGG, New Hampshire            DANIEL K. INOUYE, Hawaii
LARRY CRAIG, Idaho                   HARRY REID, Nevada
KAY BAILEY HUTCHISON, Texas          HERB KOHL, Wisconsin
TED STEVENS, Alaska                  PATTY MURRAY, Washington
JON KYL, Arizona                     DIANNE FEINSTEIN, California
                                     ROBERT C. BYRD, West Virginia
                                       (Ex officio)
                           Professional Staff
                            Bettilou Taylor
                             Mary Dietrich
                              Jim Sourwine
                        Ellen Murray (Minority)

                         Administrative Support
                             Kevin Johnson
                       Carole Geagley (Minority)



                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Senator Arlen Specter.......................     1
Opening statement of Senator Tom Harkin..........................     2
Opening statement of Senator Jon Kyl.............................     4
Statement of Stephen Straus, M.D., Director, National Center for 
  Complementary and Alternative Medicine.........................     5
    Prepared statement...........................................     6
Prepared statement of Peter G. Kaufmann..........................     9
Statement of Andrew Weil, M.D., Director, Program in Integrative 
  Medicine.......................................................    16
    Prepared statement...........................................    18
Statement of Mary Jo Kreitzer, Ph.D., Director, Spirituality and 
  Healing, Katherine J. Kensford Center for Nursing Leadership...    24
    Prepared statement...........................................    25
Statement of Herbert Benson, M.D., President, Mind/Body Medical 
  Institute, Associate Professor of Medicine, Harvard Medical 
  School.........................................................    33
    Prepared statement...........................................    40
Summary statement of James Cassidy...............................    34
    Prepared statement...........................................    35
Summary statement of Kristen Magnacca............................    36
    Prepared statement...........................................    37
Statement of Dean Ornish, M.D., Founder and President, Preventive 
  Medicine Research Institute....................................    50
    Prepared statement...........................................    53
Statement of Walter Czapliewicz..................................    57
    Prepared statement...........................................    59
  


                         ALTERNATIVE MEDICINES

                              ----------                              

                        TUESDAY, MARCH 28, 2000

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:29 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Kyl, Harkin, and Murray.


               OPENING STATEMENT OF SENATOR ARLEN SPECTER


    Senator Specter. Good morning, ladies and gentlemen. The 
hour of 9:30 having arrived, we will begin this hearing of the 
Appropriations Subcommittee for Labor, Health, Human Services 
and Education. And today we have a very interesting hearing on 
what is called alternative or complementary or supplementary 
medicine.
    There have been over the decades and centuries a great many 
treatments outside of the established medical profession, which 
seem to have worked. And they are now being incorporated in an 
expanding body of medical care in the United States.
    Acupuncture is an ancient Chinese treatment once considered 
alternative but proven to be a method for treating pain the 
past couple of decades. Reserpine was the first drug treatment 
for high blood pressure, derived from a traditional Indian 
herbal medicine.
    Digitalis, an English drug, an important plant-based 
product used for the treatment of heart disease from the flower 
foxglove. It was discovered in England, it is said, by the 
witch of Shropshire. Quinine, used by Native Americans to treat 
fevers of malaria from the bark of the cinchona tree.
    In the past several years, there has been a marked trend 
toward the trend of alternative or supplementary medicine. I 
was frankly surprised to see the statistic that 42 percent of 
United States health care consumers spent $27 billion on 
alternative supplementary medical treatments. I am not so 
surprised about the $27 billion. Those figures are hard to 
comprehend. But for 42 percent of Americans to be into this 
form of treatment is very, very extraordinary, I think.
    My colleague, Senator Tom Harkin, who should be joining us 
shortly, has been a leader in the field of stimulating 
alternative, supplementary or complementary medicine. And with 
my backing in 1992, we persuaded the Office of the National 
Institutes of Health to establish the Office of Alternative 
Medicine.
    In 1998, the Office of Alternative Medicine was elevated to 
the National Center for Complementary and Alternative Medicine. 
We have been working to provide increased funding in these 
areas. And, in 1999, NIH awarded five mind/body center grants 
at $2 million each for a total of $10 million.
    One of our distinguished witnesses today is Dr. Herbert 
Benson, who has pioneered in the field of mind/body. After 
reading one of his books many years ago, I called him and 
sought his advice.
    Many people are yet to recognize the connection of mind/
body, but I can attest personally to severe back problems I got 
after I lost an election in 1973. I have not had back problems 
since, and I have not lost an election since. I do not know if 
David Hume would say there is a causal connection, or if it 
would stand a demur or get to a jury on causality. But that is 
a field of tremendous importance, and we are trying to 
stimulate research and study in the field.
    Dr. Andrew Weil was in Philadelphia recently. Senator Jon 
Kyl is about to introduce Dr. Weil. Senator Kyl came into the 
anteroom and proudly told me about Dr. Weil being an Arizonan. 
I asked Senator Kyl if he knew Dr. Weil was born in 
Philadelphia. I forget Senator Kyl's answer, but we had 1,200 
people come out to listen to Dr. Weil the other night, and it 
was quite an outpouring.
    We have Dr. Dean Ornish, the founder and director of 
Preventive Medicine Research Institute. Friends of mine, the 
Rubens, proclaimed Dr. Ornish's genius many years ago. So we 
have really an extraordinary group to supplement Dr. Stephen 
Straus, the director of the National Center for Complementary 
and Alternative Medicine.
    There is a great deal more which could be said about what 
we are trying to do to stimulate the National Institutes of 
Health in running tests. We have anecdotal results, but it is 
important that these medicines, that these alternative 
procedures be thoroughly tested in the scientific context. And 
candidly, it has been a little hard to bring NIH along on that 
field, but a very powerful advocate on the subject is Senator 
Tom Harkin, my distinguished ranking member.
    When the Democrats control the Senate, Tom chairs the 
subcommittee. I like it better when the Republicans control the 
Senate, so I can get to chair the subcommittee.
    But we work as partners. There is no Democratic or 
Republican way to deal with health care or education or worker 
safety. And I learned a long time ago that if you want to get 
something done in Washington, you have to cross party lines.
    So before yielding to Senator Kyl, I will call on our 
distinguished ranking member, Senator Tom Harkin.


                OPENING STATEMENT OF SENATOR TOM HARKIN


    Senator Harkin. Thank you very much, Mr. Chairman. Quite 
frankly, there are times when I am glad you are chairing. I 
mean, there are times when I wish I was chairing. So it kind of 
balances out once in a while. When you get into contentious 
issues sometimes, it is nice when you have to take the lead on 
some of those things.
    Senator Specter. You mean the blame.
    Senator Harkin. Right. Exactly.
    But I really want to thank you for holding this hearing. 
And we have a very distinguished panel of witnesses today. Mr. 
Chairman, both you and I share a very deep interest in the 
field of complementary and alternative medicine. We have 
discussed it personally many times.
    My basic belief is that we need to take advantage of every 
possible method of keeping people healthy. And we cannot 
approach health care with biases that limit potential 
breakthroughs, either conventional or alternative.
    I believe our health care system will be strengthened, if 
we bring together the best of both. And as American consumers 
demand freedom to choose the health care they use, they need 
and expect reliable information on these treatments.
    That is why I pushed so hard. And you and I, Mr. Chairman, 
have made some important progress in the last decade. In 1991--
that is when I was chairing--we worked to establish the Office 
of Alternative Medicine at NIH to make sure that quality 
research----
    Senator Specter. Before you arrived, Senator Harkin, I gave 
you credit for the leadership of getting it started.
    Senator Harkin. Well, then we changed, and you have 
continued it. So I appreciate that very much.
    But we got it established. And in 1998, again with you as 
chairing, we worked together to make that office into a center 
for complimentary and alternative medicine. The center can now 
make its own decisions regarding which studies to fund, 
allowing those with the greatest expertise and alternative 
therapy research to decide the direction of research in their 
own field.
    I have met with the center's director, Dr. Stephen Straus, 
who is here today. I am very optimistic about some of the 
things the center is doing.
    We took another step forward last year, when we included 
funding, Mr. Chairman, to create the White House Commission on 
Complementary and Alternative Medicine Policy. That commission, 
which was just announced a couple of weeks ago, is to give us 
recommendations on how to catch public policy up to the 
consumer interest in and use of these therapies. This 
commission will look at whether training of health 
professionals in complementary and alternative method therapies 
is adequate, should Federal higher education loans be available 
to those studying in CAM fields, is credentialing and licensing 
of CAM providers adequate, should health plans cover more CAM 
therapies.
    These are just a few of the critical questions the 
commission will explore. Unfortunately, the commissioners have 
yet to be appointed, but I am hoping that that will happen very 
shortly.
    So, Mr. Chairman, we have a number of leaders and 
innovators in health care with us today. Each of them has done 
great work, I think, both in complementary and alternative 
medicine, but also in bringing the two fields of traditional 
medicine and complementary and alternative medicine together.
    Sometimes I wonder which is traditional. Sometimes the 
complementary and alternative medicine fields have been more 
traditional, if you go back a couple thousand years, than the 
so-called traditional methodologies that we have been using for 
the last, say, century.
    So I look forward to their statements. I look forward to 
their advice, as we continue our joint efforts in this area. 
Thank you.
    Senator Specter. Thank you very much, Senator Harkin.
    I would like now to turn to Senator Kyl.
    The floor is yours, Senator Kyl.


                  OPENING STATEMENT OF SENATOR JON KYL


    Senator Kyl. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to introduce Dr. Weil, even though 
he will not be the first person to testify here. You and I 
serve on another committee, and I have to chair that committee 
at a meeting beginning at 10:00 o'clock.
    Incidently, I note that there are many people born in 
Philadelphia who now live in Arizona. And we are happy for 
that.
    Senator Specter. Iowa, too.
    Senator Kyl. But I know on the whole you would rather be in 
Philadelphia.
    In any event, I appreciate the chance to say a few words 
about Dr. Weil here. He is the director of the Program in 
Integrative Medicine at the University of Arizona College of 
Medicine. He received his A.B. degree in biology from Harvard 
and an M.D. from Harvard Medical School. And the University of 
Arizona, which is my alma mater, Dr. Weil teaches alternative 
medicine, mind/body interactions and medical botany.
    As you know, integrative medicine refers to an approach 
that incorporates conventional and alternative therapies into 
the practice of medicine. The University of Arizona's program 
of integrative medicine is a national leader in the development 
of the practice of integrative medicine.
    In 1997, under Dr. Weil's leadership, the University began 
the Nation's first post-graduate training program in 
integrative medicine and pioneered a continuing integrative 
medical education project. In a few months, the program will 
initiate the Nation's first integrative medicine distance 
learning courses.
    These courses will use technology to bring integrative 
medicine education to physicians and nurse practitioners all 
across the world.
    Dr. Weil is also the founder of the Foundation for 
Integrative Medicine, a national organization dedicated to 
gaining widespread acceptance of the value of the integrative 
approach to health care. He is author of eight books, including 
two international bestsellers. His eighth book, Eating Well for 
Optimum Health, is currently number one on the New York Times' 
Bestseller List.
    He was named by Time Magazine as one of the Nation's most 
influential people in 1997, incidently the year that the 
Program for Integrative Medicine was founded. Dr. Weil has 
noted evolutions in the practice of medicine and patients' 
increasing dissatisfaction with what is seen as a cold and 
impersonal medical system sometimes.
    So I am very pleased to welcome Dr. Weil to testify before 
this subcommittee on this timely subject, and compliment you, 
Mr. Chairman, for conducting this hearing.
    Senator Specter. Thank you very much, Senator Kyl.
STATEMENT OF STEPHEN STRAUS, M.D., DIRECTOR, NATIONAL 
            CENTER FOR COMPLEMENTARY AND ALTERNATIVE 
            MEDICINE
ACCOMPANIED BY PETER KAUFMANN, PH.D., LEADER OF THE BEHAVIORAL MEDICINE 
            RESEARCH GROUP, NATIONAL HEART, LUNG AND BLOOD INSTITUTE, 
            NATIONAL INSTITUTES OF HEALTH

    Senator Specter. Our first witness is Dr. Stephen Straus, 
first director for the National Center for Complementary and 
Alternative Medicine. An intramural scientist at NIH for 23 
years, he is most widely known for his pioneering research on 
chronic fatigue syndrome.
    He has had extensive clinical research experience with Lyme 
disease, chronic hepatitis B, HIV/AIDS. Medical degree from 
Columbia, bachelor's degree from MIT.
    He is accompanied by Dr. Peter Kaufmann, acting director of 
the Office of Behavioral and Social Sciences Research, a leader 
in the field of behavioral medicine research group of the 
National Heart, Lung and Blood Institute. Ph.D. from the 
University of Chicago, a master's and bachelors from Loyola.
    Thank you for joining us, Dr. Straus and Dr. Kaufmann. As 
is our custom, there is a 5-minute green light which will go 
on. And if that is observed, it will leave us the maximum 
amount of time for dialogues, questions and answers.
    So, Dr. Straus, the floor is yours.
    Dr. Straus. Thank you, Mr. Chairman. Good morning, Senator 
Harkin, members of the committee. It is a pleasure to appear 
before you in my capacity as NCCAM's first director, to 
summarize very briefly our current work with particular 
emphasis on the areas of mind/body medicine training and 
integrative medicine.
    As you so eloquently stated in your introductory remarks, 
the American people have a growing interest in complementary 
and alternative medicine. And they are relying on these many 
modalities with the hope and the expectation that they will 
sustain and improve their health. Our task at NCCAM is to 
provide the scientific support to help guide the American 
public; information that the public so greatly deserves.
    I will illustrate for you very briefly with two panels to 
your right both the challenges and the opportunities afforded 
by complementary and alternative medicine. This first panel 
summarizes an important study published a few months ago using 
St. John's Wort for treatment of depression. The improvement in 
depression shown in green afforded by St. John's Wort was 
comparable to that afforded by a classic tricyclic 
antidepressant, Imipramine, and both superior to placebo.
    But while active, the next panel shows that botanicals like 
St. John's Wort have hidden and unforeseen consequences. Here 
my colleagues at the NIH have studied the effects of St. John's 
Wort on the body's handling of one of our most important HIV 
drugs, in this instance, Indinavir. In the green are the normal 
blood levels of Indinavir that are achieved. But when St. 
John's Wort is added to the regimen, it speeds the clearance of 
that drug from the blood, to levels that are sub-optimal for 
AIDS therapy.
    So while there is increased use of complementary and 
alternative medical tools, if they are to be active, they must 
have actions on the body. And we must study both the efficacy 
and the safety of these various modalities. Complementary and 
alternative medicine encompasses a very broad portfolio of 
opportunities that we are attempting to address with important 
guidance of our many stakeholders and our advisors.
    Among the many disciplines is the area of mind/body 
medicine, part of which overlaps with the field of 
complementary and alternative medicine in the instance in which 
the modalities are not yet proven or yet well integrated into 
medical care.
    Among our portfolio of studies in mind/body medicine are 
eight current projects that we are funding, including projects 
at the Maharishi University in Iowa and at Dr. Weil's home 
institution at the University of Arizona in Tucson, which I had 
the pleasure of visiting in February.
    Our approach to studies of mind/body medicine will be like 
the broader field of complementary and alternative medicine, 
applying the most rigorous scientific tools to provide the 
American public definitive answers. I believe that the results 
of our research efforts will over time lead to the successful 
integration of safe and effective practices into mainstream 
medicine. Medicine, after all, is a constantly evolving field. 
And our research portfolio will provide definitive information.
    Our important, newly announced initiative to fund studies 
of both factors that promote and prevent effective integration 
of practices will help as well. And recall, as you mentioned, 
that CAM is a new scientific discipline. And we have the 
important charge to build a cadre of competent investigators to 
lead this science forward.
    We have announced within the past 4 months our ability to 
fund the full panoply of pre-doctoral and post-doctoral 
training and curriculum development initiatives for CAM 
investigators.


                          PREPARED STATEMENTS


    We are funding intramural and extramural centers in CAM, 
including Dr. Weil's Center. And ultimately, their efforts 
coupled with those of our own other centers will be translated 
for the public through effective communication. An informed 
public will adopt the best therapies and reject those that are 
unproven or unsafe.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions you have.
    [The statements follows:]
                Prepared Statement of Stephen E. Straus
    Mr. Chairman and Members of the Committee: I appreciate the 
opportunity to appear before you today to address the subcommittee's 
interests in complementary and alternative medicine (CAM), training of 
CAM researchers, NCCAM's plans for facilitating integration of CAM 
modalities with conventional health care, and our support of mind-body 
research.
    Accompanying me is Dr. Peter Kaufmann, Acting Director of the NIH 
Office of Behavioral and Social Science Research (OBSSR). He will be 
pleased to respond to any questions you may have regarding the overall 
NIH portfolio of research on behavioral and mind-body research 
supported across the NIH Institutes and Centers.
    My presence here today, and moreover, NCCAM's very existence, 
reflects the growing public interest in complementary and alternative 
medicine (or CAM, as we call it), and the belief that various CAM 
therapies may play a role in improved public health. Approximately 42 
percent of U.S. healthcare consumers spent $27 billion on CAM therapies 
in 1997. In recognition of this growing consumer trend, Congress in 
1998 elevated the NIH Office of Alternative Medicine (OAM), expanded 
its mandate, creating the NCCAM, and affording it administrative 
authority to design and manage its own research portfolio. The Congress 
has continued to reflect the growing interest in CAM by further 
increasing funding for the Center in fiscal year 2000 to $68.4 million. 
We are indeed appreciative of this support.
    As the NCCAM's first permanent director, I am excited by the 
challenge put before me. As CAM use by the American people has steadily 
increased, many have asked whether reports of success with these 
treatments are valid. A number of practices, once considered 
unorthodox, have proven safe and effective and assimilated seamlessly 
into current medical practice. Acupuncture is routinely applied to 
manage chronic pain and nausea associated with chemotherapy. Some of 
our most important drugs--digitalis, vincristine, and taxol--are of 
botanical origin. Practices such as meditation and support groups are 
now accepted as important allies in our fight against disease and 
disability.
    In the absence of definitive evidence of effectiveness, however, 
alternative practices may impart untoward consequences. It is critical 
that untested but widely used CAM treatments be rigorously evaluated 
for safety and efficacy. Likewise, promising new approaches worthy of 
more intensive study must be identified. I am energized by this 
challenge to help provide the American public the guidance it seeks.
    NCCAM's strategy for taking on this challenge is different from 
that used by other NIH Institutes and Centers (ICs). While the research 
of other ICs is usually driven by basic scientific discoveries, NCCAM 
has chosen to focus most heavily on definitive clinical trials of 
widely utilized modalities that, from evidence-based reviews, appear to 
be the most promising. Compelling and rigorous data and not just 
anecdotes must be provided to the public, and we must educate 
conventional medical practitioners about the panoply of effective CAM 
practices, so they can be integrated into patient care.
    Accordingly, the NCCAM is developing a strategic plan to ensure 
that these responsibilities are consistent with our continued growth, 
development and research directions. Five strategic areas have been 
identified as: Investing in research; training CAM investigators; 
expanding outreach; facilitating integration; and practicing 
responsible stewardship.

             ST. JOHN'S WORT--OPPORTUNITIES AND CHALLENGES
    Already, NCCAM has developed a diverse research portfolio in 
partnership with the other NIH Institutes and Centers. Among these are 
some of the largest, and certainly the most definitive Phase III 
clinical trials ever undertaken for a range of CAM therapies. Allow me 
to highlight one of these studies to illustrate both the promises and 
the challenges presented by CAM therapies.
    Extracts of St. John's wort, a widely distributed flowering plant, 
have become quite popular as a treatment for depression. In fact, by 
some accounts, it is the number one selling nutritional supplement. 
Because of this intense interest, NCCAM, the National Institute of 
Mental Health, and the NIH Office of Dietary Supplements are 
collaborating on a study of the safety and effectiveness of St. John's 
wort for the treatment of depression. While that study is now nearing 
completion, those of other groups have underscored our interest in 
learning more about this botanical.
    A recent report in The British Medical Journal, for example, showed 
that St. John's wort is more effective than placebo in treatment of 
depression, and perhaps as effective as an older generation anti-
depressant drug Imipramine. NCCAM's study, which is considerably larger 
than the European trial, compares St. John's wort with placebo and with 
Zoloft, currently one of the most commonly used anti-depressants. 
However, the therapeutic promise of St. John's wort and of botanical 
products like it, is accompanied by risks that the public has largely 
ignored. An NIH study published February 12th in the Lancet found that 
St. John's wort, when taken together with the important HIV protease-
inhibiting drug, Indinavir, increased the rate at which Indinavir was 
eliminated from the bloodstream, to the extent that blood levels fell 
below the desired level for effective AIDS treatment. Interestingly, 
other studies have suggested that St. John's wort has a similar effect 
on cyclosporin A, a drug used to prevent the rejection of transplanted 
organs. The use of St. John's wort may also increase an individual's 
sensitivity to exposure to the sun.
    As these studies demonstrate, the dearth of credible scientific 
evidence on CAM practices provides unprecedented opportunity for 
determining the safety and efficacy of CAM modalities. Included in our 
already very broad research agenda are studies of mind-body medicine.

                       NCCAM'S MIND-BODY RESEARCH
    Mind-body medicine encompasses a spectrum of behavioral, 
biomedical, social, and spiritual components of our makeup that 
interact on a continuing basis in health and disease. This broad 
discipline overlaps partially with the NCCAM mission. The CAM community 
does not consider it a priority for NCCAM to study mind-body approaches 
that have a well-documented theoretical and evidence base such as 
patient education, biofeedback, and cognitive-behavioral approaches 
that are all addressed extensively by the other ICs working in concert 
with OBSSR. On the other hand, the types of projects NCCAM supported 
are rigorous studies of mind-body modalities involving: (1) still 
undocumented CAM techniques; (2) modalities for which there is little 
evidence in the conventional medical research community; and (3) 
unorthodox uses for otherwise conventionally-accepted mind-body 
techniques, such as hypnosis.
    In keeping with this approach, the NCCAM portfolio already contains 
studies on:
  --efficacy of relaxation/guided imagery and chamomile tea for 
        treating bowel disorders in children;
  --self-hypnosis, acupuncture, and osteopathic manipulation for 
        children with cerebral palsy;
  --palliative benefits of hatha yoga on cognitive and behavioral 
        changes associated with aging and neurological disorders in 
        multiple sclerosis patients and in the healthy elderly;
  --reducing hypertension and other cardiovascular disease (CVD) risk 
        factors through meditation;
  --a combination of relaxation training, hypnosis, and guided imagery 
        employed during radiologic procedures to reduce the need for 
        intravenous drugs and improve patient safety;
  --improvement in well-being and immune function as a result of self-
        transcendence in members of a breast cancer support group;
  --biofeedback and yoga to treat asthma; and
  --Tai Chi, compared to western exercise, in preventing frailty in the 
        elderly.
    One key aspect of mind-body research involves studies of the 
``placebo effect.'' Later this year, NCCAM, in collaboration with NIDDK 
and other ICs, will convene a trans-NIH conference on this subject. 
Goals of the conference include providing a scholarly assessment of the 
state of the field; identifying areas for which there is scant 
research, but considerable opportunity; and recommending a research 
agenda to move the field forward, in particular projects to be pursued 
by interested ICs through individual or joint initiatives with NCCAM. 
Elucidating the nature of the placebo effect will help us better 
harness the healing power of the mind.

      INTEGRATIVE MEDICINE, RESEARCH TRAINING, AND COMMUNICATIONS
    Medicine is an ever evolving discipline. It integrates or rejects 
approaches based on scientific evidence. The results of rigorous 
research in CAM, including studies of mind-body medicine, will enhance 
the successful integration of safe and effective modalities into 
mainstream medical practice. NCCAM initiated a series of specific 
activities to facilitate this. On December 13, 1999, NCCAM solicited 
applications to foster incorporation of CAM information into the 
curricula of medical and allied health schools and continuing medical 
education programs. Also, the NCCAM must educate eager medical students 
about CAM so that they may knowledgeably guide their patients toward 
safe and effective CAM applications. In addition, we must work to 
overcome the reluctance of conventional physicians to consider 
validated CAM therapies and to assimilate proven ones into their 
practice. To this end, on December 13, 1999, the Center established a 
Clinical Research Curriculum Award (CRCA) to attract talented 
individuals to CAM research and to provide them with the critical 
skills that are needed. NCCAM also plans to solicit applications for 
applied research focusing on identifying barriers to the use of CAM 
modalities by conventional physicians; developing strategies to 
incorporate validated CAM interventions into standard medical practice; 
and evaluating the effects of this incorporation.
    Integrative medicine is also a key goal of NCCAM's planned 
Intramural Research Program and a component of NCCAM's Specialized 
Research Centers. Each of the Specialized Research Centers focuses on 
one of several areas, including pediatrics, addiction, cardiovascular 
disease (CVD), minority aging and CVD, aging, neurological disorders, 
craniofacial health, arthritis, and chiropractic medicine. In addition 
to these nine Centers, NCCAM and the NIH Office of Dietary Supplements 
jointly established two Dietary Supplements Research Centers to advance 
the science of botanicals, including issues of their composition, 
safety, and biological action. Another request for Center grant 
applications focusing on asthma and cancer was released for fiscal year 
2000. This, coupled with our anticipated solicitation of one more 
botanical center in fiscal year 2000, will likely bring our total 
number of NCCAM-supported centers to as many as 15. Research training 
is conducted by these Centers, in part to advance our goals in 
integrative medicine, but also to assist us in building a cadre of 
skilled CAM investigators. Some of NCCAM's Centers spend as much as ten 
percent of their budget on training. In this regard, in two weeks I 
will be addressing the Deans of all U.S. medical schools on the subject 
of NCCAM's research and research training agenda.
    Specific statutory authority enables the NCCAM to reach out 
directly to the public and practitioners to provide them with critical 
and valid information regarding the safety and effectiveness of CAM 
therapies. This provides another vehicle for facilitating integration. 
A focal point for information about NCCAM programs and research 
findings is the NCCAM Information Clearinghouse, which develops and 
disseminates fact sheets, information packages, and publications to 
enhance public understanding about CAM research supported by the NIH. 
Its quarterly newsletter, Complementary & Alternative Medicine at the 
NIH is distributed to 6,000 subscribers. The NCCAM's award winning 
World Wide Web site, first established two years ago, reflects the 
NCCAM's growth in size and stature. Averaging more than 460,000 hits 
per month, the site includes links to NCCAM program areas, news and 
events, research grants, funding opportunities, and resources. 
Assembled by NCCAM from the National Library of Medicine's (NLM) 
MEDLINE database, the CAM Citation Index (CCI) affords the public 
access to approximately 175,000 bibliographic citations searchable by 
CAM system, disease, or method. Also, in February 1999, NCCAM joined 
the federally supported Combined Health Information Database (CHID), 
which includes a variety of health information materials not available 
in other government databases, including nearly 1,000 CAM citations not 
available elsewhere.
    NCCAM sponsors national meetings, consensus conferences, and 
workshops. As outreach to research and medical professionals, CAM 
practitioners, and the health care consuming public, NCCAM has 
initiated a series of town meetings. The first of this series was held 
on March 15 in Boston, in conjunction with the Center for Alternative 
Medicine Research and Education of Beth Israel Deaconess Medical 
Center. Over 500 attendees heard presentations on the importance of CAM 
research. Many substantive issues were raised in the public forum 
portion of the program. The opportunity for dialog at the local level 
is important for us, not only for disseminating key research findings, 
but also for the public to provide perspective and help us shape our 
overall research strategy.

                               CONCLUSION
    In closing, I would like to share with the Subcommittee my vision 
of where I expect complementary and alternative medicine to be in the 
years to come. I am confident that NCCAM's leadership will stimulate 
both the conventional and CAM communities to conduct compelling 
scientific research. Several therapeutic and preventative modalities 
currently deemed elements of CAM will prove effective. Based on 
rigorous evidence, these interventions will be integrated into 
conventional medical education and practice, and the term 
``complementary and alternative medicine'' will be superseded by the 
concept of ``integrative medicine.'' The field of integrative medicine 
will be seen as providing novel insights and tools for human health, 
and not as a source of tension that insinuates itself between and among 
practitioners of the healing arts and their patients. Modalities found 
to be unsafe or ineffective will be rejected readily by a well-informed 
public.
    I would be pleased to answer your questions on NCCAM's activities 
and plans.
                                 ______
                                 
                Prepared Statement of Peter G. Kaufmann
    Mr. Chairman, I am pleased to submit the following statement on the 
role of the Office of Behavioral and Social Sciences Research (OBSSR) 
in fostering behavioral and social sciences research at the National 
Institutes of Health (NIH) as background information for the 
Subcommittee.

                        OBSSR GUIDING PHILOSOPHY
    In 1993 the U.S. Congress created the Office of Behavioral and 
Social Sciences Research (OBSSR) in the Office of the Director, NIH, in 
recognition of the key role that behavioral and social factors often 
play in illness and health. The guiding philosophy of OBSSR is that 
scientific advances in the understanding, treatment, and prevention of 
disease will be accelerated by greater attention to behavioral and 
social factors and their interaction with biomedical variables. 
Currently, NIH supports approximately $1.6 billion in behavioral and 
social sciences research. (See attached funding table.)

                      MISSION AND RESPONSIBILITIES
    The mission of the OBSSR is to stimulate behavioral and social 
sciences research throughout NIH and to incorporate these areas of 
research more fully into others of the NIH health research enterprise. 
The major responsibilities of the office and its director are:
  --to provide leadership and direction in the development, refinement, 
        and implementation of a trans-NIH plan to increase the scope of 
        and support for behavioral and social sciences research;
  --to inform and advise the director of NIH and other key officials of 
        trends and developments having significant bearing on the 
        missions of the NIH, Department of Health and Human Services, 
        and other Federal agencies;
  --to serve as the principal NIH spokesperson regarding research on 
        the importance of behavioral, social, and lifestyle factors in 
        the initiation, treatment, and prevention of disease; and to 
        advise and consult on these topics with NIH scientists and 
        others within and outside the Federal Government;
  --to develop a standard definition of ``behavioral and social 
        sciences research,'' assess the current levels of NIH support 
        for this research, and develop an overall strategy for the 
        expansion and incorporation of these disciplines across NIH 
        institutes and centers;
  --to promote cross-cutting, interdisciplinary research, and to 
        incorporate a biobehavioral perspective into research on the 
        promotion of good health, and the prevention, treatment, and 
        cure of diseases;
  --to develop initiatives designed to stimulate research in the 
        behavioral and social sciences;
  --to ensure that findings from behavioral and social sciences 
        research are disseminated to the public;
  --to sponsor seminars, symposia, workshops, and conferences at the 
        NIH and at national and international scientific meetings on 
        state-of-the-art behavioral and social sciences research.

                           MIND/BODY RESEARCH
    One example of the kind of behavioral and social sciences research 
that OBSSR promotes across all of the institutes and centers is mind/
body research. Funding for mind/body research is significant and broad 
at NIH. Fourteen institutes and centers estimate that they will fund a 
total of approximately $125.3 million in mind/body research in fiscal 
year 2001. Approximately 50 percent of OBSSR's budget is specifically 
designated for mind/body research. A breakdown of that funding by 
institute and center follows.

                                      FUNDING FOR MIND/BODY RESEARCH AT NIH
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal year--
                          Participating                          -----------------------------------------------
                                                                    1999 actual    2000 estimate   2001 estimate
----------------------------------------------------------------------------------------------------------------
NCI.............................................................            10.9            12.0            13.1
NHLBI...........................................................            19.5            21.7            22.9
NIDCR...........................................................             2.3             2.6             2.8
NINDS...........................................................             1.6             1.8             1.8
NICHD...........................................................            13.2            15.1            15.9
NIEHS...........................................................             1.1             1.1             1.2
NIA.............................................................             4.4             5.1             5.3
NIAMS...........................................................             3.2             3.6             3.8
NIMH............................................................             5.7             6.5             6.9
NIAAA...........................................................            32.5            33.9            33.2
NINR............................................................             1.0             1.1             1.6
NCRR............................................................             4.2             5.3             5.6
NCCAM...........................................................             0.5             0.6             0.7
OD..............................................................            10.0            10.1            10.6
                                                                 -----------------------------------------------
      NIH \1\...................................................           110.0           120.6           125.3
----------------------------------------------------------------------------------------------------------------
\1\ May not add due to rounding.

                     EXAMPLES OF MIND/BODY RESEARCH
    Mind/body research encompasses behavioral, social and biomedical 
research on the interrelationships among cognition, emotion, biological 
functioning, and physical health. In recent years, we have made 
significant advances in the field of mind/body research. Provided below 
are examples of studies that exemplify the influence of psychological, 
behavioral, and social processes on all levels of biological 
functioning and health.
  --For more than 10 years, the National Institute of Mental Health has 
        funded research that examines the psychological and 
        physiological effects of a group psychotherapy intervention for 
        women with metastatic breast cancer. There is evidence that 
        this treatment enhances coping and social support, reduces mood 
        disturbance and pain, and may extend survival time. This work 
        is now expanding to assess the physiological basis of 
        psychosocial effects on cancer survival. It will evaluate 
        whether lower cortisol levels and higher immune activity, 
        especially natural killer cell cytotoxicity, will result from 
        group psychotherapy and will predict longer survival.
  --Research funded by the National Institute of Dental and 
        Craniofacial Research is examining how stress affects the 
        ability to heal. Care givers for those stricken with Alzheimer 
        disease and students taking academic examinations are groups 
        who clearly experience stress. Studies show that skin wounds in 
        Alzheimer's care givers heal at a rate 25 percent slower than 
        those who are not under chronic stress. Students taking final 
        exams took 40 percent longer to heal than when they were not 
        under the pressure of exams.
  --An ongoing investigation at the National Institute of Mental Health 
        is studying the link between social environment, psychological 
        states (positive and negative affect, personal control, self-
        esteem) and vulnerability to upper respiratory infections. This 
        research previously demonstrated that stress increases 
        susceptibility to upper respiratory infection while the support 
        of larger social networks decrease susceptibility. The current 
        study will attempt to identify causal pathways (psychological, 
        health practice and biological) linking stress, social network 
        size, and disease susceptibility.
  --An ongoing study at the National Cancer Institute is seeking to 
        assess the effect of a stress reduction intervention program on 
        the quality of life and immunologic function of women diagnosed 
        with breast cancer. The study will use a well established and 
        cost effective stress reduction technique known as Mindfulness-
        based Stress Reduction (MBSR) as the intervention method. MBSR 
        has been previously shown to be effective in improving the 
        ability to cope with stress and to promote psychological and 
        physical well being. The effect of MBSR on women with breast 
        cancer has never been studied. The investigators will test 
        whether MBSR will produce greater improvement in psychological, 
        social, and somatic functioning in the group receiving this 
        intervention, compared to the group that does not. The 
        investigators will also test whether MBSR will produce enhanced 
        immune functioning.
  --A study that examines the relationship between stress, immune 
        function, and HIV disease progression in African American women 
        in rural South Florida is supported by the National Institute 
        of Mental Health. Previous work has demonstrated that stress is 
        predictive of early HIV progression and that this mind-body 
        interaction may be mediated by the impact of stress on key 
        parameters of cellular immunity. Current research employs 
        repeated measures to (1) establish a definite relationship 
        between stress and HIV progression; (2) begin to determine 
        whether important changes in host defense (killer cell levels 
        and their functional activity) correlate with stress associated 
        changes in clinical status; (3) determine if alterations in 
        glucocorticoid function correlate with changes in immune/
        disease status. The results of these investigations will 
        enhance the possibility of understanding causal mechanisms in 
        stress and immune based illness at physiological cellular and 
        molecular levels.
  --The National Heart, Lung and Blood Institute is examining the 
        pathways through which mental stress influences heart function 
        in health and illness. The primary objectives are to evaluate 
        the relative importance of psychological, neurological, and 
        cardiovascular factors in precipitating heart attacks. Coronary 
        heart disease patients as well as normal individuals are being 
        studied through mental stress testing, mood and affect, 
        personality variables, biochemical variables, and autonomic 
        nervous system function. This study is one of the most 
        comprehensive studies of mind-body interactions in 
        cardiovascular health, and spawned a collaborative study of 
        mental stress as a foreboding factor for cardiac events.
  --The largest randomized clinical trial ever undertaken in the field 
        of mind-body medicine examines whether treating depression and 
        enhancing social support facilitates recovery from heart 
        attack. This seven-year study is funded by the National Heart, 
        Lung, and Blood Institute and has enrolled nearly 2,500 heart 
        patients from nine centers nationwide.
  --A project examining the mechanisms by which hypertension impairs 
        intellectual function is supported by the National Heart, Lung, 
        and Blood Institute. Positron Emission Tomography (PET) 
        functional brain imaging permits scientists to test the 
        hypothesis that hypertension impairs cerebral blood flow 
        response. With the advent of ultrasound measurements, 
        investigators can also test a second hypothesis that 
        atherosclerosis of the carotid arteries influences intellectual 
        function.

              CONGRESSIONAL INTEREST IN MIND/BODY RESEARCH
    In fiscal year 1999 OBSSR received $10 million from Congress to 
establish five mind/body research centers. An RFA to fund five centers 
was issued in January 1999. OBSSR received 18 applications in response 
to the RFA. Following initial peer and secondary council reviews, NIH 
awarded five Specialized Centers Grants (P50) at approximately $2 
million (total costs) each in September 1999 to the University of 
Michigan, University of Pittsburgh Medical Center/Carnegie Mellon, 
University of Miami, University of Wisconsin and Ohio State University. 
NCI, NHLBI, NICHD, NIMH, and, NIDCR are administering the awards. The 
Centers support both basic research and clinical applications focusing 
on the influence of beliefs, attitudes and values on physical health; 
the determinants or antecedents of health-related beliefs, attitudes, 
and values; and stress management approaches to disease prevention and 
treatment. It will take about two years before the first results from 
the research supported through these Centers will be available.
    The Center Directors and leaders of their research projects will be 
meeting with NIH staff on May 1-2, 2000 in the first of their annual 
meetings. The goal of this meeting is to familiarize each other with 
their research goals and projects and to explore avenues of 
coordination and cooperation.
    Actual and projected funding for the Mind/Body Centers is as 
follows:

----------------------------------------------------------------------------------------------------------------
                                                                   Fiscal year--
            Institute            -------------------------------------------------------------------------------
                                    1999 actual    2000 estimate   2001 estimate   2002 estimate   2003 estimate
----------------------------------------------------------------------------------------------------------------
NCI.............................      $2,015,187      $2,046,384      $2,101,822      $2,158,930      $2,217,094
NHLBI...........................       2,000,002       2,143,982       2,202,180       2,089,273       2,050,320
NICHD...........................       1,999,100       2,038,179       2,059,895       1,968,479       1,825,140
NIDCR...........................       1,995,569       1,956,068       1,972,841       2,037,693       2,089,959
NIMH............................       2,005,331       1,937,560       1,995,695       2,026,417       2,035,356
----------------------------------------------------------------------------------------------------------------

                               CONCLUSION
    Mind/body research has a long and significant history of support at 
14 institutes and centers at the NIH. OBSSR, an office whose mandate is 
to encourage additional funding and coordinate trans-NIH initiatives in 
mind/body medicine, is ideally located for this purpose in the Office 
of the Director. With broad funding support across the institutes and 
centers, and an office that serves as a central coordinating locus, 
mind/body research at NIH is in an excellent position to continue to 
flourish.
    Thank you for your interest in the role of OBSSR in fostering mind/
body approaches to health and healing at NIH.

    Senator Specter. Thank you very much, Dr. Straus. I noted 
your comments about grants to Iowa and Arizona. Was it 
inadvertent that Pennsylvania was not mentioned?
    Dr. Straus. Actually, Pennsylvania receives the largest 
funding of any State to this time, largely through the very 
important clinical trial chaired out of the University of 
Pittsburgh, a 5-year study of gingko biloba for prevention of 
dementia in otherwise healthy aging Americans.
    Senator Specter. Well, I am very glad to have those facts 
on the record.
    Dr. Straus, there has been considerable resistence to 
complementary alternative integrated medicine by the 
established medical profession. Do you see an easing of that 
resistance? And what do you think can be done to give a push to 
these alternative, complementary integrated approaches, which 
have established themselves with some substantial degree of 
reliability.
    Dr. Straus. That is a very important question, Senator. The 
very fact that I accepted the offer to chair this center is an 
indication that the mainstream scientific community now 
appreciates that there are terrific challenges and 
opportunities. And with your help and that of the American 
people, we now have the independence and the resources to apply 
well-proven scientific principles to address complementary and 
alternative medical practices, the same way we do all other new 
ideas in medicine.
    It is true that mainstream medicine has, to some extent, 
resisted some of these new ideas, but medicine has always been 
an evolving discipline. As you mentioned in your introductory 
remarks, there are practices today that were once considered 
quite alternative. Early in this century, radiation therapy was 
considered extreme.
    Senator Specter. Let me interrupt you, Doctor----
    Dr. Straus. Yes, sir.
    Senator Specter [continuing]. Perhaps to go on to another 
question, because time is very limited. When you talk about the 
funding, Senator Harkin and I have taken the lead with this 
subcommittee in providing the funding.
    Mind/body medicine was funded for the first time in 1998 at 
$55 million. Now it is up to more than $125 million. 
Complementary and alternative medicine was at a $42 million 
level in 1997. Now it is almost four times that, a little over 
$160 million.
    And while you have to make the ultimate judgments, we are 
very concerned about the need for training for medical and 
other health care professionals in integrative medicine and 
incorporating integrative medicine into medical school 
curricula. In order to do that, there is going to have to be a 
push from your agency. I know Dr. Weil has a keen interest and 
has pointed out that issue.
    Let me hear of your plans to move in that direction.
    Dr. Straus. Certainly. First of all, we are currently 
funding some of Dr. Weil's fellows.
    Senator Specter. But how about the medical training and the 
medical school curricula?
    Dr. Straus. We announced a few months ago an intent to fund 
what is known as a CAM education project grant. We expect $1.5 
million of funding this first year. That will fund education of 
young individuals to become CAM investigators at all the allied 
health professional schools, including nursing, dental, medical 
and osteopathic.
    We also announced and intend to fund clinical research 
curriculum awards. We expect a seven-fold increase this year 
over last year in our funding for training and career 
development of CAM investigators.
    Senator Specter. Dr. Straus, the issue of mind/body has 
been recognized to a substantial extent but is still looked 
upon with some skepticism by many. And there is the aspect of 
spiritual counseling, the prayer, so to speak, on the impact on 
physical ailments.
    We would be interested in your evaluation of the efficacy 
of the mind/body approach and your suggestions as to what can 
be done to better educate the public on the facts on this 
issue.
    Dr. Straus. Many parts of mind/body medicine have been very 
well integrated already, cognitive behavioral therapies and 
hypnosis and biofeedback and many exercise regimes. There is 
only a small part of mind/body medicine that is not embraced 
well by the other NIH institutes and centers. And we are 
conducting studies of spirituality and yoga and the like.
    I think the best approach is to continue to address the 
opportunities of mind/body medicine across all the disciplines 
and fields within the NIH.
    Senator Specter. Would you amplify what you mean by 
``addressing spirituality''?
    Dr. Straus. We are funding studies of the use of 
spirituality in healing processes. I addressed a workshop on 
religion and spirituality----
    Senator Specter. Religion and spirituality?
    Dr. Straus. Yes--this past November. And we look forward to 
receiving applications to conduct additional such studies.
    Senator Specter. Do you see any conflict whatsoever or 
potential conflict on spirituality and religion in a mind/body 
funding by the Federal Government?
    Dr. Straus. Not when we are asking scientific questions; it 
is beneficial ultimately to the American public.
    Senator Specter. So the issue as to approach is an 
individual one, if the individual chooses something spiritual 
or religious. And NIH is studying the physical impact in a 
scientific context.
    Dr. Straus. Yes.
    Senator Specter. So you do not see a conflict.
    Dr. Straus. I do not.
    Senator Specter. Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.
    Dr. Straus, again, I want to compliment you on your early 
leadership of the National Center. I believe it is doing some 
very important work and seemingly headed in the right 
direction. I want to clear up a couple of things here.
    First of all, we just heard the chairman state that out of 
all of NIH, there is about $160 million this year for some kind 
of complementary and alternative medicine. I want to point out 
that the National Center gets about $67 million this year.
    That is less than \1/2\ of 1 percent of the total funding 
for the entire NIH. I want to make that clear. Less than \1/2\ 
of 1 percent of the total funding for NIH goes to the National 
Center for Complementary and Alternative Medicine.
    If you throw in what the National Cancer Institute and all 
the others are doing here to get up to the $160 million, that 
is still less than 1 percent of the total funding for NIH that 
goes to complementary and alternative medicine. And yet over 
half of the American people every year spend more money out of 
pocket for complementary and alternative medicine care and 
visits than they do in going to the so-called traditional 
method group.
    And so I have been hearing reports in the press and stuff 
about how much money we are spending here. But in keeping with 
where the American people are going and what they want and what 
they are doing, it is woefully inadequate in terms of taking a 
look at the promising therapies and to really take a look at 
what is happening with a lot of the nutraceuticals that people 
are taking today.
    So I wanted to clear that up. It may sound like a lot of 
money, but in the scheme of things, less than 1 percent of the 
total funding for NIH goes for this. Now having said that, I 
see all these different branches of NIH, all the different 
institutes spending this money.
    For example, the National Cancer Institute lists $38.4 
million they are spending this year on complementary and 
alternative medicine.
    My question to you, Dr. Straus, is: Do you have a good 
handle on what they are doing? And how closely are you 
coordinating with the National Cancer Institute to find out 
just what they are spending their money on?
    Dr. Straus. Your comments are very cogent, Senator. Shortly 
after assuming the position of director, I met with the 
director of the National Cancer Institute to discuss this very 
issue.
    And he assured me of very broad support for his office for 
complementary and alternative medicine, whose director, Dr. 
Jeff White, and I meet at least on a monthly basis. We are 
developing public information and website information together.
    We are cosponsoring a major study of shark cartilage for 
the treatment of lung cancer and many other initiatives. They 
are conducting additional studies using green tea as well for 
cancer prevention.
    Senator Harkin. But when they do these studies, when NCI 
does it, how do they peer review them? Do they do them through 
your office, or do they peer review them in their own?
    Dr. Straus. Applications to the NIH, as you know, go to the 
Center for Scientific Review. And they are reviewed in the 
normal study sections. In the instance of a shark cartilage 
study, or shall I say the green tea study, it would go to a 
cancer therapy study section. Our peer review group reviews 
applications that we in NCCAM call for specifically.
    Senator Harkin. Say that last again.
    Dr. Straus. NCCAM's own peer review group reviews 
applications that we have called for specifically.
    Senator Harkin. I understand that. That is why we set that 
up.
    Dr. Straus. Yes, sir.
    Senator Harkin. How confident are you that the peer review 
process for all these other institutes spending what they say 
they are spending--and I am not certain. I tell you, I want 
everyone to know that I have some real questions about this, 
about just what they are spending their money on and listing it 
as complementary and alternative medicine. And I intend to 
pursue this further with the directors of each of the 
institutes.
    I am just wondering about the peer review process. I have 
been through this a long time.
    Dr. Straus. Yes, sir.
    Senator Harkin. And I know what that is like. And that is 
why we insisted that for NCAM the peer review process involve 
practitioners of complementary and alternative medicine.
    I have said before, would you ever have a peer group to 
peer review a request, a research request, for some kind of a 
cancer chemotherapy, and that peer review did not contain one 
oncologist? What if they were just all podiatrists? I mean, 
that is what we are getting into.
    And if in fact we are looking at complementary and 
alternative medicine, some of those people ought to be on that 
peer review committee.
    Dr. Straus. If I may respond, my staff sees listings of 
every application that comes to the NIH. I am confident that we 
have an opportunity to fund them, even if other institutes do 
not. And in addition, the review panels often request our 
recommendations for practitioners who have expertise in those 
particular areas to join the standing review panel. So that 
does happen, Senator.
    Senator Harkin. One last thing. The statute that we passed 
that set up the center requires a full-time liaison from every 
institute to your center. Has that been established?
    Dr. Straus. Yes, sir. I chair a trans-agency committee on 
complementary and alternative medicine. We are meeting again in 
another several days. I have addressed them this past fall.
    Senator Harkin. Good. That is very encouraging.
    Dr. Straus. Thank you, sir.
    Senator Specter. Thank you very much, Senator Harkin.
    Thank you very much, Dr. Straus and Dr. Kaufman.
    Dr. Kaufman is here to answer questions. And if there were 
more time, we would have had some questions. But we do thank 
you very much for coming. And as is customary, the agenda is so 
full, but we will be talking to both of you later. Thank you.
    Dr. Straus. Thank you. I look forward to it.
STATEMENT OF ANDREW WEIL, M.D., DIRECTOR, PROGRAM IN 
            INTEGRATIVE MEDICINE
    Senator Specter. Let us turn now to our second panel, Dr. 
Andrew Weil and Dr. Mary Jo Kreitzer.
    As previously announced, Dr. Weil is the director of the 
Program in Integrative Medicine at the University of Arizona 
College of Medicine where he teaches alternative medicine, 
mind/body interactions, and medical botany.
    He is the founder of the Foundation for Integrative 
Medicine and has written and lectured extensively on 
alternative medicine, medicinal plants, and the redesign of 
medical education. Medical degree from Harvard Medical School 
and a bachelor's degree from Harvard University.
    And in the interest of full disclosure, which is always a 
good idea, Dr. Weil and Senator Kyl and I came through the back 
room for the benefit of television. There is a documentary in 
process on Dr. Weil. Maybe it is on Senator Kyl. I am not sure. 
But that was why we entered in that manner. And there is no 
demonstration of favoritism to any witness. There may be a 
little favoritism to television, but not witnesses.
    Dr. Weil, you are claimed by at least two States, Arizona 
and Pennsylvania. And Pennsylvania has priority. Thank you for 
joining us. And we look forward to your testimony.
    Dr. Weil. Thank you, Senator Specter, Senator Harkin. Thank 
you for inviting me here to testify.
    I would also like to acknowledge your strong leadership in 
this area of working to provide the American public with a 
better form of medicine. And I would also like to say I am very 
happy to appear with distinguished colleagues in this field 
this morning.
    The vast numbers of patients who are seeking care outside 
of conventional medicine represent a crisis of confidence with 
American medicine today. I travel around this country very 
frequently and speak in many different venues and interact with 
many different kinds of patients. I think I have a clear sense 
of what people are looking for in their visits to doctors 
today.
    They want doctors who have time to explain to them in 
language they can understand the nature of their problems, who 
will not just promote drugs and surgery as the only way of 
doing treatment, doctors who are at least minimally aware of 
nutritional influences on health and can answer intelligently 
questions about uses of dietary supplements, a source of great 
confusion to the public today.
    They want doctors who are sensitive to mind/body 
interactions and are willing to look at patients as more than 
just physical bodies. They want doctors who will not laugh at 
them if they bring up questions about Chinese medicine or 
homeopathy or other forms of treatment that are not taught in 
American medical schools.
    I think those are very reasonable requests. But the fact is 
that that is not how we are training physicians today. So there 
is a widening gulf between what patients expect from their 
doctors and what they are getting. And in their frustration, 
they are going elsewhere.
    I think most of these people, if given their first choice, 
would go to a medically trained person, to a medical doctor, a 
doctor of osteopathic medicine, who was open minded and able to 
guide them through the maze of conflicting treatment options 
out there. That clearly would be people's first choice.
    So it seems to me that the fundamental problem is medical 
education. The way we are training doctors today does not meet 
the needs of the public. Now there is an argument that you will 
hear from some academicians that changes in medical education 
must be guided by science and research, not by consumerism. But 
I think in this case consumers are indicating severe failings 
in medical education.
    The fact that medial education in this country does not 
include basic information about nutrition and how many kinds of 
disease can be influenced by making dietary change is 
inexcusable.
    The fact that our country does not train physicians in the 
use of botanicals or that teach them differences between whole 
plant products and isolated chemicals from plants is 
inexcusable and puts us, by the way, at a great disadvantage in 
the world, where other countries like Japan and Germany are way 
ahead of us in this area.
    What we are trying to do at the Program in Integrative 
Medicine is to develop new models of medical education. The 
fellowship training that we do provides an excuse for 
developing curriculum in these areas that are now missing from 
conventional medical education that will be there when medical 
schools open to this possibility.
    And by the way, I think there is increasingly openness 
within the schools. Some key schools, such as the University of 
California, San Francisco, Stanford, Duke University, among 
others, the University of Minnesota, have indicated willingness 
to move in this direction. Jefferson Medical College, as you 
know, has started a strong initiative in this area as well.
    But these programs are fledgling programs. They are 
struggling. They need support. And without Federal direction 
and guidance, there is a real danger that they are going to 
fail. With due respect to Dr. Straus, the National Center for 
Complementary and Alternative Medicine provides no mechanisms 
for funding of these efforts. We are not in the business of 
training researchers. That is one aspect of what we do.
    But the only money that NCAM says is available is for 
training of researchers in complementary and alternative 
medicine. That is not the issue here. The issue is where is the 
money to support curriculum development, to develop new models 
of training physicians that can meet the needs of consumers 
today?

                           PREPARED STATEMENT

    At the moment, we see no mechanisms for getting that kind 
of support from the Federal Government. And if it is not going 
to come from the National Center for Complementary and 
Alternative Medicine, I would make a plea to this subcommittee 
to think about ways of designing other structures through which 
Federal funds can come to support an effort that is clearly 
needed.
    Thank you.
    [The statement follows:]
                   Prepared Statement of Andrew Weil
    Mr. Chairman, Senator Harkin, and members of the Subcommittee, 
thank you for inviting me to testify this morning. For many, many 
years, I have been personally and professionally engaged in the very 
issue under consideration by the Subcommittee this morning. I am 
encouraged by the level of interest Congress has shown in behavioral, 
alternative, and mind-body medicine.
    I would be remiss if I did not recognize the hard work Chairman 
Specter and Senator Harkin put into the fiscal year 2000 Labor, Health 
and Human Services, and Education bill. In strong and certain language, 
the Subcommittee recognized the importance of training physicians in 
integrative medicine. This language underscores our responsibility to 
meet the needs of the rapidly growing number of consumers who are 
demanding a more healing-oriented system of healthcare.
    Recent data indicate that nearly 50 percent of all U.S. healthcare 
consumers have sought alternative medicine in some capacity, creating 
the expectation that physicians should be knowledgeably guiding their 
patients through a course of treatment that is right for them. We can 
do this by ensuring that physicians and other healthcare providers have 
access to appropriate levels of education and training in the valuable 
relationship between alternative and conventional medicine. This is the 
spirit of integrative medicine--maximizing the body's innate potential 
for self-healing by weaving alternative approaches into mainstream 
medicine.
    With consumers' growing interest in a more integrative approach to 
healthcare and Congress' intent to fund integrative medicine education 
and training programs, allow me to share the unique and specific work 
we are doing at the University of Arizona to develop a model which best 
responds to these expectations.
    The University of Arizona Program in Integrative Medicine was 
established in 1996 with seven objectives:
    (1) Establish integrative medicine as a new direction within 
academic medicine, not as a new specialty;
    (2) Develop a new model of medical education and curricula for use 
by other medical institutions;
    (3) Train physicians, pharmacists, nurses and other healthcare 
providers in the theory and practice of integrative medicine;
    (4) Challenge physicians and other healthcare providers to commit 
to their own health and healing;
    (5) Develop integrative medicine clinics as models for clinical 
education, patient care, and outcomes research;
    (6) Research theories and methods of integrative medicine including 
effectiveness of new models of medical education; and
    (7) Produce leaders who will establish similar programs at other 
academic institutions and set policy and direction for healthcare in 
the 21st century.
    The mission of the Program in Integrative Medicine is to foster the 
redesign of medical education to incorporate the philosophy of 
integrative medicine. The Program developed a core curriculum which is 
adapted for its various educational components: the Fellowship in 
Integrative Medicine, the Associate Fellowship in Integrative Medicine 
(the ``distance learning'' model for clinicians), Continuing 
Professional Education (CPE), pre-medical and medical education, and 
education of healthcare professionals.
    It is important to note that this curriculum does not represent a 
linear process. Rather, curriculum components are interwoven to form an 
educational program that provides students, physicians and other 
healthcare professionals with a comprehensive education depicting the 
philosophies, principles and practices that are central to integrative 
medicine.
    Philosophical Foundations.--The most fundamental distinction of 
integrative medicine is to shift the orientation of medicine from 
disease to healing. This requires students to closely examine their 
attitudes, not only with respect to medicine but also the manner in 
which they view the world. Courses include healing oriented medicine, 
the philosophy of science, medicine and culture, the art of medicine 
and research education.
    Lifestyle Practices.--A basic principle of integrative medicine is 
that the manner in which we live clearly affects our health and 
disease. Lifestyle practices and prevention are central to this 
approach. This component of the curriculum focuses on the basic aspects 
of life and health that are addressed in the care of patients as well 
as practitioners of integrative medicine. Courses include spirituality 
and medicine, mind/body medicine, nutrition, and physical activity.
    Therapeutic Systems and Modalities.--This component explores a 
variety of modalities and therapeutic systems. The history, theories, 
appropriate applications and scientific evidence are presented for each 
system and modality. Physicians, healthcare professionals and students 
learn the techniques for some of these therapeutic modalities. More 
frequently, by presenting the theories and appropriate applications for 
these systems and modalities, those persons participating in the 
Program learn when and to whom they should refer their patients for the 
best treatment strategy individualized for their care. Courses include 
botanical medicine, manual medicine, Chinese medicine, homeopathy, 
energy medicine, guided imagery and hypnotherapy.
    The coursework described above, while often taught experientially, 
is content-oriented. The following are more process-oriented, and are 
not, therefore, broken down into specific courses.
    Personal Development and Reflection.--Approaches involved in the 
practice of integrative medicine require practitioners to commit to 
their own process of self-exploration and personal development. The 
current methods used to educate medical students often result in the 
underdevelopment or degradation of these processes, and often translate 
into sub-optimal interactions with patients. This component of the 
curriculum is focused on methods for relaxation and self-examination of 
the healthcare professional. Included are such practices as meditation, 
personal reflection and group process.
    Clinical Integration.--The process of integrating philosophically 
different systems of medicine into one comprehensive treatment plan for 
each patient is one of the most central features of the practice of 
integrative medicine. The goal is to teach the art of integration, not 
simply the strengths and weaknesses of alternative practices.
    In the absence of physicians or other healthcare providers who are 
educated and practiced in the art of integration, patients are torn 
between the instructions they receive from their conventional 
physicians, alternative care providers, health food clerks, the 
Internet, and their families in making their own medical decisions. 
Healthcare providers must be skilled in understanding when and how to 
incorporate alternative approaches and to counsel patients against 
useless or fraudulent practices. This component also focuses on the 
integration of such philosophies and approaches into the practitioners' 
own personal and professional life.
    Furthering the Field/Implementation.--This curriculum component is 
designed to help physicians and other practitioners put into practice 
what they have learned. There is strong focus on physicians as leaders 
functioning as agents of social change. Content areas include practical 
skills such as public speaking, business planning and management 
skills; social-political aspects of integrative medicine; medicine and 
law; and related ethical issues. For clinicians in practice, the 
emphasis is placed in putting this education into action within their 
clinical settings.
    This core curriculum serves as the blueprint from which specific 
curricula are designed to meet the needs of the various educational 
components of the Program in Integrative Medicine.

                 THE FELLOWSHIP IN INTEGRATIVE MEDICINE
    The Fellowship is a two-year, intensive program, incorporating 
didactic instruction, direct research and clinical experience, which is 
available to MDs and DOs who have completed residencies in primary care 
specialties. The objective of the Fellowship is to produce leaders in 
integrative medicine: individuals who will go on to other universities 
and healthcare institutions to establish similar programs and set 
policy and direction for healthcare in the 21st century; in other 
words, to ``train the trainers.''
    A comprehensive, intensive course of study of the principles, 
theories and practices of integrative medicine is available to a 
relatively limited number of competitively selected, board-certified 
physicians. Such physicians, at the end of the Fellowship Program, are 
qualified to institute parallel programs in integrative medicine in 
medical and health professions institutions throughout the United 
States.
    Of the first graduating class of Fellows in Integrative Medicine in 
the United States, which graduated in June 1999, three have received 
appointments to develop programs in integrative medicine at 
Northwestern University-Evanston, Beth Israel Medical Center and East 
Tennessee State University College of Medicine. The fourth graduate 
remained with the University of Arizona Program in Integrative Medicine 
to lead the CPE portion of the Program and, more recently, to serve as 
a resource to other medical and health professions institutions that 
are seeking to develop programs in integrative medicine.
    In addition to the basic research education, Fellows regularly 
attend journal groups, during which time they review and learn to 
critically evaluate published studies in complementary and alternative 
medicine. The didactic instruction Fellows receive early in the program 
prepares them to develop and conduct direct research during the later 
part of the initial year and the second year of the Fellowship. This 
research is conducted under the guidance of their chosen research 
mentor, who is conducting research in the Program.

              ASSOCIATE FELLOWSHIP IN INTEGRATIVE MEDICINE
    The Associate Fellowship is an Internet-based distance-learning 
program to provide physicians throughout the country the opportunity to 
learn integrative medicine. The Associate Fellowship is the newest 
component of the Program, and will begin the education of Associate 
Fellows in the fall of 2000. The Associate Fellowship will consist of 
approximately 1,000 hours of study over a two-year period and will 
include Internet-based study, real-world assignments and three one-week 
sessions at the Program in Integrative Medicine at the University of 
Arizona Health Sciences Center in Tucson.
    Internet technology was selected as the primary instructional 
medium in that it provides a ``real-time,'' interactive learning forum 
that is highly appropriate for problem-based learning. Because 
integrative medicine is a rapidly developing field, this format allows 
faculty and participants to keep up to date easily by responding to new 
information and discoveries.
    During their three on-site training sessions in Tucson, Associate 
Fellows will meet the faculty of the Program in Integrative Medicine, 
learn mind-body skills such as meditation and guided imagery, 
participate in case conferences and learn strategies for sustained 
personal/professional development and leadership activities in their 
respective home communities.
    The first enrollment in August 2000 will be limited to 40 
participants. As of March 2000, more than 80 applications had been 
received for the first enrollment. Of the 40 who were selected, five 
are international applicants, 11 are from rural areas, 32 serve a 
combination of urban and rural environments, and 18 are from academic 
institutions. The applicants are evenly divided between males and 
females. Due to the demand and the large applicant pool, consideration 
is being given to adding a second class of Associate Fellows soon after 
the first begins. Subsequently, 50 participants will be enrolled at 
each intake. The Associate Fellowship will have at least two intakes of 
physicians by 2003.
    Once the Associate Fellowship is established, efforts of the 
faculty and staff of the Associate Fellowship Program will be focused 
on adapting the core curriculum to the specific educational 
requirements of other healthcare professionals, such as nurses, 
physician assistants and pharmacists. With the knowledge gained 
utilizing the distance learning format, physicians and other healthcare 
professionals will be prepared to establish programs in integrative 
medicine in their home institutions.

       CONTINUING PROFESSIONAL EDUCATION IN INTEGRATIVE MEDICINE
    The Department of Continuing Professional Education (CPE) 
encompasses Continuing Medical Education (CME) for physicians, 
Continuing Education (CE) for nurses and pharmacists and educational 
programs for healthcare professionals. The purpose of the CPE Program 
is to introduce healthcare professionals and academicians to the 
philosophy, basic principles and clinical application of integrative 
medicine.
    Participants evaluate the CME and CE curricula at the time these 
courses are conducted and courses are continuously modified to be 
consistent with the needs of physicians and healthcare professionals, 
while ensuring that the principles and practices of integrative 
medicine are accurately represented.
    The CPE program differs from the Associate Fellowship in that it 
provides education to a wide range of healthcare professionals. To 
date, more than 4,500 individuals including physicians, nurses, 
pharmacists, social workers, massage therapists, psychotherapists, 
students and others have enrolled in one or more of the courses offered 
by the Program in Integrative Medicine's CPE program. A total of 2,489 
individuals have received Continuing Education credits: 1,335 
physicians; 798 nurses, nurse practitioners and physician assistants; 
and 125 pharmacists.
    The Program plans to expand the opportunities for the education and 
training of nurses in integrative medicine. During the initial year of 
this expansion, the Fellowship curriculum will be modified to meet the 
specific needs of nurse practitioners and physician assistants. 
Research requirements will be identical to that of the Fellowship 
program for physicians. As is the case for physicians' Fellowship 
program, nurse practitioners who complete the two year program will be 
prepared to develop and implement curricula in integrative medicine 
within nursing education throughout the country.

                        MEDICAL SCHOOL EDUCATION
    The Program in Integrative Medicine currently participates in and/
or presents one required course and two elective courses at the 
University of Arizona College of Medicine.
    I teach an interdepartmental, required course that is part of the 
basic science curriculum. The course gives students an understanding of 
the psycho-social and emotional aspects of clinical medicine by 
exploring the biological, environmental, social and psychological 
factors that influence a person as a patient. Some of the topics 
covered are the doctor-patient relationship, major health problems for 
children and adults, substance abuse, issues in human sexuality, coping 
with chronic illness, healthcare and the elderly, death and dying, 
ethical issues in medicine and legal aspects of medical care. Four two-
hour lectures are dedicated to fundamentals in integrative medicine.
    The Program also conducts two elective courses. The goals are to 
enable the students and residents to become familiar with the range of 
available alternatives to allopathic medicine, to be able to evaluate 
these systems of treatment critically, and to learn whether any 
elements of them may complement orthodox approaches.
    One of the electives is a patient care course in which participants 
spend half the time in the Integrative Medicine Clinic with a Fellow 
and attending physician, observing patients and recommending 
treatments. During the other half of the rotation, students and 
residents are placed with alternative practitioners in southern Arizona 
(naturopaths, homeopaths, body workers, etc.) to observe their 
techniques. This approach provides the students with a broad exposure 
to the integration of allopathic and alternative modalities in very 
different settings.
    The Program also is designing an elective for the fall semester of 
2000. The course will allow students to explore the role of their own 
lives in their patients' lives and in the healing relationship. Based 
on the principles of integrative medicine, the course is the first of 
its kind to be offered in the College of Medicine at the University of 
Arizona.

                        UNDERGRADUATE EDUCATION
    Currently, faculty and Fellows of the Program in Integrative 
Medicine lead discussions at the undergraduate level to teach basic 
principles of integrative medicine and discuss the implications for 
their professions and their lives.
    For example, the University of Arizona Department of Molecular and 
Cellular Biology and the Program in Integrative Medicine are 
collaborating on the design of a web-based, interactive learning 
environment that will enable undergraduate students to use integrative 
medicine as a vehicle for exploring the philosophy of science and 
medicine. This module will play a pivotal role in the professional 
development of students entering the health professions by introducing 
them to the philosophy and practices of integrative medicine and 
illustrating how these practices can be related to their careers. This 
learning module will reach approximately 1,000 students per year in 
University of Arizona's Introductory Biology course, and will be 
disseminated to peer institutions nationwide.

               CLINICAL PRACTICE OF INTEGRATIVE MEDICINE
    The Clinical Practice of Integrative Medicine was designed to meet 
the challenge of shifting the orientation from one of disease to one of 
healing. The goal of this approach is to teach the art of integration, 
not simply the strengths and weaknesses of alternative practices or new 
protocols. The Integrative Medicine Clinic is a place to begin this 
discourse.
    The clinical practice component, like the research component, is 
directly linked to the core curriculum. Emphasis is on establishing 
rapport with patients; obtaining patient histories that include the 
emotional, psychological, and spiritual aspects of patients' lives; 
listening carefully; assessing patients' belief systems; and presenting 
treatments in ways that increase the likelihood of successful outcomes.
    During the initial one-hour visit, the Fellows interview and 
examine their patients and address any problems that require immediate 
intervention. They then present each patient in an interdisciplinary 
patient conference. At this conference, I am joined by clinicians 
representing various systems of medicine including Oriental medicine, 
homeopathy, mind-body medicine, osteopathy, pharmacy, nursing, 
nutrition, naturopathy, and spirituality. In this forum, Fellows 
develop an understanding of the different systems of medicine and 
recognize the appropriate applications for these systems to create an 
optimal integrative treatment plan. These plans are individualized and 
often include a combination of alternative and conventional treatments.
    Interestingly, it has been the experience of the clinicians and 
Fellows of the Program in Integrative Medicine that the number of 
botanicals and supplements patients have self-prescribed prior to their 
visit to the Clinic are often reduced in the treatment plan established 
by the Fellow and contributing clinicians.
    After the initial visit, the patient then returns to the 
Integrative Medicine Clinic for a discussion of the treatment options 
with the Fellow, and may also be scheduled for an evaluation in the 
clinic by an alternative practitioner together with the Fellow. The 
Fellow then has the opportunity to observe their patient undergoing 
evaluation and then treatment through an entirely different system from 
the one in which they are trained. This results in a much deeper 
understanding of alternative systems and their application.

                    RESEARCH IN INTEGRATIVE MEDICINE
    Research in Integrative Medicine is designed to enable students and 
healthcare professionals to master critical thinking about research, 
including how to assess existing research and evaluate its validity and 
significance, how to formulate critical research questions, and how to 
design experiments and methodologies that effectively address these 
questions.
    In addition to didactic coursework defined in the core curriculum, 
direct research experience is a requirement of the Fellowship Program. 
The direct research experience is currently focused on physicians in 
the second year of the Fellowship Program. Fellows may choose either to 
work on an existing project under the direction of the faculty member, 
or to work with a faculty member to develop a research project that is 
consistent with the goals and objectives of the Program's educational, 
research and clinical components.
    There are currently 10 Fellows in the Program in Integrative 
Medicine, four of whom are in their second year. Of these four, one 
Fellow has secured funding for an independent research project, two are 
in the process of applying for funding to conduct independent research 
and one is participating in active research projects in the Program in 
Integrative Medicine. Four of the first-year Fellows are developing 
research projects. Two others are supported by a $5,000,000 five-year 
NIH grant to establish and support a Pediatric Center for Complementary 
and Alternative Medicine (CAM) at the University of Arizona.

              FORWARDING THE FIELD OF INTEGRATIVE MEDICINE
    One of the Program in Integrative Medicine's highest priorities is 
to forward this field and facilitate implementation of integrative 
medicine into educational curricula nationally. The intent is to change 
premedical and pre-health education, pre-doctoral and postdoctoral 
medical education and nursing education, and to reach out to other 
healthcare professions such as pharmacy. The Program has and will 
continue to take a leadership role in identifying and working with 
academic institutions interested in integrating the Program's 
educational and clinical models into their systems.
    As you recall, in the fiscal year 2000 Labor, Health and Human 
Services, and Education Appropriations bill, this subcommittee urged 
the National Center for Complementary and Alternative Medicine (NCCAM) 
to give priority consideration toward funding integrative medicine 
education and training. The language stated:

          ``The Committee urges NCCAM to give priority to the funding 
        of postgraduate training of physicians in integrative medicine. 
        In particular, the Committee encourages study of strategies for 
        integrating complementary and alternative medicine into the 
        traditional premedical, predoctoral, and postdoctoral medical 
        education curricula. The Committee encourages NCCAM to give 
        consideration to funding programs at academic institutions 
        which offer postgraduate fellowships for physicians in 
        integrative medicine, continuing education in integrative 
        medicine for other health professionals, and distance learning 
        models in complementary and alternative medicine for doctors 
        and other health professionals throughout the country.''

    As I hope has been made clear, the Program in Integrative Medicine 
has developed a model standard for integrative medicine education and 
training. We believe that this model best meets the intent articulated 
by the subcommittee last year. Yet, approximately six months after we 
submitted a proposal in this regard, NCCAM has been reluctant to 
consider it.
    Mr. Chairman, we appreciate that the NIH institutes and centers are 
largely research entities, and we recognize the critical need to fund 
research into complementary and alternative medicine applications. But 
if we are not able to provide relevant education and training for our 
healthcare workforce, the result will be nothing more than giving 
consumers the authority to practice medicine.
    Consumers must rely on their physicians, nurses, pharmacists, and 
other healthcare professionals to make informed decisions on the course 
of treatment that is right for them. Considering the widespread 
interest in this field, the frustrations of physicians who have not 
been exposed to these modalities and the overwhelming demand of 
physicians for training in integrative medicine, we have a 
responsibility to provide more than just research into the efficacy of 
CAM applications. That is only half of the equation.
    Federal funding will enable the Program to refine this 
comprehensive curricula in integrative medicine for premedical, 
medical, and postdoctoral medical education. Further, it will provide 
increased capacity for the Program to train national leaders in the 
field, physicians and other healthcare professionals, research the 
effectiveness of new models of medical and clinical education, and 
facilitate the integration of standardized curricula at other academic 
institutions.
    The University of Arizona Program in Integrative Medicine therefore 
requests that the fiscal year 2001 appropriation for NCCAM include $2 
million specifically for an Education Program Grant to achieve this 
clinical education and training objective. Such an appropriation would 
clearly reaffirm the position taken by this Subcommittee a year ago, 
when you asked NCCAM to make clinical education in integrative medicine 
a priority.
    Mr. Chairman, we are disappointed that our proposal to NCCAM has 
not been considered more formally. Further, we are concerned that NCCAM 
has refused to respond to Congress' request to prioritize integrative 
medicine education and training. But we have a responsibility to our 
nation's physicians and their patients, and are committed to pursuing 
other avenues for funding which I would be happy to discuss with you 
and your staff.
    Thank you for giving me the opportunity to testify this morning. I 
would be glad to answer your questions.
STATEMENT OF MARY JO KREITZER, PH.D., DIRECTOR, 
            SPIRITUALITY AND HEALING, KATHERINE J. 
            KENSFORD CENTER FOR NURSING LEADERSHIP
    Senator Specter. Thank you very much, Dr. Weil.
    We will come back for dialogue questions and answers after 
we hear from Dr. Mary Jo Kreitzer, director of Spirituality and 
Healing at the University of Minnesota. She received her Ph.D. 
from Minnesota, master's from the University of Iowa, and 
bachelor's from Augustana.
    Thank you for joining us, Dr. Kreitzer. We look forward to 
your testimony.
    Dr. Kreitzer. Thank you, Chairman Specter and members of 
the subcommittee. I am the director of the Center for 
Spirituality and Healing at the University of Minnesota where I 
lead a team of physicians, nurses, chaplains and faculty 
representing many disciplines, including psychology, music, 
kinesiology, food science and nutrition and social work.
    And our charge at the university is to integrate 
complementary care, spirituality and culturally based healing 
practices into the work and life of the university.
    Our mission grew out of a planning process that included 
consumers, third-party payers, State legislators, biomedical 
and complementary practitioners, as well as representatives of 
health systems. A copy of our planning document will be 
appended to my written testimony.
    Our mission at the center is three-fold: the generation and 
dissemination of research, the education of health 
professionals, and the development and evaluation of care 
models that offer integrative medicine. In many universities 
across the country, as Dr. Weil has described, there are 
attempts being made to develop programs to integrate 
integrative care. But I have to tell you that teaching is often 
limited to lectures offered within an optional or shadow 
curriculum.
    At the University of Minnesota, we have brought integrative 
medicine out of the shadows. Our medical students, for example, 
get exposed to integrative medicine literally during their 
first week of medical school. Our goal is that they learn from 
the very beginning that there are multiple perspectives and 
world views, and bio-medicine represents but one of those 
perspectives.
    The transformation that many of us are talking about in 
health care today goes well beyond substituting an herb for a 
prescription or over-the-counter drug. It is clearly a mandate 
for broader access to an array of healing traditions, care that 
is attentive to the whole person, the body, mind and spirit, as 
well as support for self care, personal responsibility. People 
want to make choices about their health and healing.
    And I think it is very critical that this be understood. 
Because in the old model of health care, education of 
physicians was sufficient. It was both necessary and 
sufficient.
    Physicians were the gatekeepers to care, and consumers the 
passive recipients who did what they were told to do, at least 
some of the time. We now know from Eisenberg studies and others 
that more visits are made to complementary and alternative 
practitioners than to primary care physicians.
    My argument today is that education of physicians is still 
necessary, but it is not sufficient, that the agenda for 
education needs to address education of both the next 
generation of health care providers, as well as the hundreds of 
thousands of practicing health professionals. Thus, it needs to 
incorporate undergraduate, graduate and post-graduate training.
    Dr. Weil has articulated the need for physician education. 
But I am here to tell you that there is also a compelling need 
for education of nurses, along with professionals such as 
pharmacists, dentists and public health practitioners.
    Nurses represent the largest group of health professionals 
in the world and are in direct contact with consumers. Thus, 
they are in a very key position to both educate consumers, as 
well as to coordinate and integrate care.
    Much of what is often called integrative medicine has been 
within the domain of nursing for centuries. And this is a time 
when nursing is reclaiming, reaffirming and expanding its focus 
on complementary therapies to better serve the public.
    Education of health professionals can also no longer occur 
in isolation from one another. The reality is that if we expect 
people to function as a team, we need to do a better job of 
educating them as a team, interdisciplinary education.
    We have initiated at the University of Minnesota a graduate 
minor in complementary therapies and healing practices that 
grew out of a significant demand from students currently 
enrolled in graduate programs, as well as professionals 
throughout the State.
    This spring, we will be requesting from the National 
Institutes of Health funding to expand this program to include 
certificate programs, as well as distance learning options.
    The transformation of health care being called for today 
clearly requires funding for both education, as well as 
research. The need for research is very clear, and I think it 
is well understood.

                           PREPARED STATEMENT

    But if we want to see the findings from research integrated 
into practice and changes made in how care is delivered, then 
we also need to invest, and invest significantly, in education 
of health professionals.
    Thank you very much.
    [The statement follows:]
                 Prepared Statement of Mary Jo Kreitzer
    Mr. Chairman, and Members of the Subcommittee: I am the director of 
the Center for Spirituality and Healing at the University of Minnesota 
where I lead an interdisciplinary team that includes physicians, 
nurses, chaplains and faculty from many disciplines, including 
pharmacy, psychology, music, kinesiology, food science and nutrition, 
and social work. Our charge is to integrate complementary care, 
spirituality and culturally based healing practices into the work and 
life of the University. Our mission grew out of a University-community 
planning process that included consumers, third-party payers, State 
legislators, biomedical and complementary practitioners, and 
representatives of health systems. After a comprehensive review of 
trends and issues, a clear mandate emerged--that the University should 
become a national leader and model in integrative medicine. The 
University-appointed task force produced a report entitled 
``Transforming Health Care: Integrating Complementary, Cross-Cultural 
and Spiritual Care'' that has been distributed across the country. It 
is appended to my written testimony.
    Our mission as a Center is threefold: the generation and 
dissemination of research, the education of healthcare professionals, 
and the development and evaluation of care models that truly integrate 
complementary, biomedical and culturally based approaches to healing.
    In many universities across the country, where attempts are being 
made to develop programs in integrative care, teaching is limited to 
elective courses or to lectures offered within an optional shadow 
curriculum. It is our belief at the University of Minnesota that for 
integrative medicine to be legitimized, it needs to come out of the 
shadows. It needs to be integrated into education, research, and 
patient care. For example, our medical school students are exposed to 
integrative medicine during their very first week of medical school. 
The goal is to ensure that, from the very start of their training, they 
learn that there are multiple perspectives and worldviews of healing, 
and that biomedicine represents but one. Before they begin medical 
school, they are required to read Anne Fadiman's When the Spirit 
Catches You, You Fall Down a highly regarded work that describes the 
experiences of a Hmong child with epilepsy caught in a medical system 
that does not understand her culture and that disregards culturally 
based values. Competencies in integrative medicine are also being woven 
into the 4-year, undergraduate primary-care curriculum within the 
medical school.
    I come to Washington today with the full support of the University 
president, senior vice president for the Academic Health Center and the 
deans of medicine, nursing and pharmacy to seek support for increased 
funding of education as well as research in integrative medicine.
    The transformation of healthcare called for today goes well beyond 
substituting an herb for a prescription or over-the-counter drug. It is 
a mandate
  --for increased access to a broader array of healing traditions.
  --for care that is attentive to the whole personbody, mind, and 
        spirit.
  --for support for self-care, in other words, consumers assuming 
        increased personal responsibility for their health and 
        wellness.
    It is critical that this be understood. In the old model of 
healthcare, educating physicians was both necessary and sufficient. 
Physicians were the gatekeepers to care and consumers the passive 
recipients. We now know from the Eisenberg studies and others, that 
more visits are made to complementary and alternative practitioners 
than to primary care physicians. The education of physicians is still 
necessary--but it is not sufficient.
    The agenda for education in integrative medicine needs to address 
the education of both the next generation of healthcare providers as 
well as the hundreds of thousands of presently practicing healthcare 
providers.
    Looking first at the next generation of health care providers: The 
need for physician education has been well articulated. I am here to 
tell you that there is also a compelling need for funding the education 
of nurses, as well as other health professionals, such as pharmacists, 
dentists, nutritionists and public health practitioners. Nurses 
represent the largest group of healthcare professionals in the 
country--indeed the world. Survey after survey documents that nurses 
are among the most trusted of healthcare professionals, are in direct 
contact with consumers of healthcare, and are in a key position to both 
educate consumers and to facilitate and coordinate care that integrates 
biomedical and complementary approaches to healing. While much of what 
is now being called integrative medicine includes approaches to care 
and healing that have been within the domain of nursing for centuries, 
there is a need for nursing curriculum to reclaim and to reaffirm this 
heritage and to assure that nurses are well prepared to serve the 
public.
    Similarly, there is a significant need to integrate complementary 
and alternative medicine (CAM) content into pharmacy education. In many 
drug stores and supermarkets across the country, herbs and nutritional 
supplements are being sold in the absence of pharmaceutical care 
practitioners who are prepared to inquire about herbal use and to 
engage patients in frank, empathetic, and knowledgeable discussions 
about their use of all medications and supplements. Ignoring herbal 
products does not discourage their use; it simply means that consumers 
will self-medicate without seeing these products as part of an overall 
medication regime. This makes medication management extremely 
difficult.
    The education of health professionals can no longer occur in 
isolation from one another. The reality is that if we expect people to 
function as a team, a community of healers, we need to do a better job 
of interdisciplinary education at undergraduate, graduate and post-
graduate levels. At the University of Minnesota, we have initiated an 
interdisciplinary graduate minor in complementary therapies and healing 
practices. This program grew out of a significant demand for education 
from both students enrolled in University graduate programs and 
practicing health professionals. This Spring, we will be requesting 
funding from the National Institutes of Health to expand this program 
to include certificate programs and distance learning options. NIH 
funding has also been requested for a clinical research fellowship 
program to train CAM researchers. The program is being developed by 
Richard Grimm, MD, Director of the Berman Center for Clinical Outcomes, 
in collaboration with the University of Minnesota and Northwestern 
Health Sciences University.
    Second, while training the next generation of healthcare providers 
is essential, I cannot emphasize enough the importance of also 
educating presently practicing healthcare professionals. Post-graduate 
continuing education courses offer an opportunity to teach highly 
relevant, specialty-based content to large groups of practicing 
healthcare professionals. Over the next two months at the University of 
Minnesota, our faculty will be teaching at an annual family practice 
review, a cardiac arrhythmia conference, a diabetes conference, an 
annual primary care conference, and a continuing education program on 
liver and pancreatic disease. We face a tidal wave of demand and can 
accommodate but a fraction of the requests we receive for education.
    The transformation of healthcare called for today requires funding 
for both education and research. The need for research is well 
understood. However, to move beyond the generation of research to the 
dissemination of research and to changes in practice will require 
investment in education. We need funding to develop undergraduate, 
graduate, and post-graduate educational programs, as well as funding to 
train faculty who teach in academic training programs across the 
country.

    Senator Specter. Thank you very much, Dr. Kreitzer.
    Senator Harkin.
    Senator Harkin. Thank you very much. I just want to pick up 
one thing Dr. Kreitzer just said. I am informed that there is a 
national drugstore chain--I might as well say it, CVS--that has 
now put out a document that publishes drug interactions with 
nutraceuticals like St. John's Wort now so that people can look 
that up now.
    So they have now started including other things other than 
just prescription drugs. So I think that is a step. You 
mentioned about educating pharmacists. I was reading your 
statement here. So as I understand it, that is one drug chain 
that has taken the lead.
    Dr. Weil, I want to thank you personally. I have read a 
number of your books, obviously. But you published a CD 
sometime ago on healing. And to anyone who has not heard it, I 
am not shilling for Dr. Weil or anything like that, I want you 
to know, but I have listened to it. And I must tell you, it is 
just an amazing thing how it can put you in the deepest kind of 
relaxation mode, especially after a stressful day or a 
stressful week.
    My wife also has a fairly stressful job. She is in the 
private sector. She was watching me put my headphones on and 
listen to this one time and got curious about it. And so she 
was kind of questioning it. So I had her try it. It was just 
amazing, absolutely amazing. If you have a stressful week and 
you want to get the weekend off right, that is what I do.
    So I want to thank you for it, because it has just done a 
lot for me personally.
    I also want to say one other thing, Dr. Kreitzer. The 
University of Iowa Medical School has opened a clinic. I do not 
know if you are familiar with it. But when a patient comes in, 
that patient is thoroughly looked at and given options as to 
just what type of procedure and process the patient wants to go 
to.
    And instead of gearing that patient first to the 
traditional prescription drug, invasive type of medicine, they 
are asked if they would like to try and go through 
complementary and alternative-type practices first. It is an 
interesting approach. And this is at the University of Iowa 
Medical School.
    So these things I see happening around the country. And I 
think a lot of it has happened since the Office of Alternative 
Medicine started in 1991. More and more medical schools are 
moving in that direction. So I am very intrigued by what you 
are doing north of us in Minnesota.
    I just would ask both of you, and I want to ask Dr. Ornish 
the same question, what direction do we go in now? We are going 
to be--I think we are going to get more money for the center. 
You have heard me talk about the different things that are 
happening at NIH. What is the next step? What should we be 
thinking about here?
    Dr. Weil. Senator, again, I cannot say too strongly that I 
would like you to be thinking about how we can change medical 
education. I see this as fundamental to everything.
    For example, there is tremendous economic incentive at the 
moment for clinics facing bankruptcy or HMOs in very 
competitive markets to offer complementary holistic services in 
response to this consumer demand. But where are the 
practitioners going to come from to direct these programs, if 
our medical schools are not training people in this way?
    If we want to see more and better research in mind/body 
medicine or in botanical medicine, it is not going to happen 
until we graduate people from an educational system that makes 
them see the importance of mind/body interactions or the 
importance of botanicals and differences from isolated 
chemicals.
    So I see that as really the root problem. That is the 
fundamental thing that has to change.
    Senator Harkin. Dr. Kreitzer.
    Dr. Kreitzer. Senator Harkin, there are two areas that I 
think funding is critical. One is to fund some programs, 
educational programs, that can become national models, that can 
be demonstration projects that can be replicated in other 
institutions. As Dr. Weil mentioned, there are many places 
around the country that are trying to do this, but attempts are 
fledgling, the very early stages.
    The other area where I think we need funding is to really 
evaluate what is going to work in terms of integrative care, 
models of care delivery. I am familiar with the University of 
Iowa, having graduated there with my master's degree in 
nursing.
    And I have kept in contact with my colleagues there. We are 
establishing a similar clinic at the University of Minnesota. 
But I think we do not know yet what are going to be the most 
successful factors in those clinics to target success.
    Senator Harkin. The one thing we want to hear from you--I 
am going to obviously ask Dean Ornish this, also--and that is, 
what do we do in terms of nutrition? It seems to me that 
starting with kids in high school, grade school, with the 
school lunch program, school breakfast program, I do not know 
that we have really done enough in this country to integrate 
nutrition with medicine and to start early on to get kids to 
understand what health care is about in terms of what they eat.
    If you have a thought----
    Dr. Weil. Senator, I think that is an understatement. The 
total instruction that I got in nutrition in 4 years at Harvard 
Medical School and a year of internship was 20 minutes, which 
were grudgingly allowed to a dietician in one hospital I worked 
at in Boston to tell us about special diets we could order for 
patients. That has not changed significantly since I have been 
out of medical school.
    There are now 20 percent of schools that say they teach 
nutrition. But when I look at what they teach, it is mostly 
biochemistry. It is not the kind of information that enables 
doctors to answers questions like, ``Should I eat butter or 
should I eat margarine,'' or ``Is olive oil safe or is it 
not,'' or ``Is it okay to take Beta-Carotene in isolated 
form?'' Doctors do not know the answers to those questions 
unless they make an effort to go out and learn them.
    And by the way, one of the immediately obviously 
consequences of the lack of sophistication about the medical 
profession in this area is the utterly abysmal food that is 
served in hospitals in this country, which should be a national 
disgrace. And that includes the cafeterias in leading academic 
medical centers, where doctors, nurses, medical students and 
house officers eat. I think we have a long way to go here.
    And we do not need more research. This is not an area in 
which we need to train researchers. We need to change the 
medical curriculum. We need to develop a practical, workable 
curriculum in nutritional medicine that can be made 
foundational. To regard this as alternative or complementary 
would be foolish.
    Dr. Kreitzer. Senator Harkin, we are beginning to offer 
courses like Andrew Weil has described at the University of 
Minnesota. Being a land grant institution, we also have the 
advantage of having a college of agriculture on our campus, as 
well as an academic health center.
    And we are working very hard to establish close bridges to 
connect the whole issue of landscape sustainability with human 
health sustainability, another important area for 
investigation.
    Senator Specter. Thank you, Senator Harkin.
    Before turning to Senator Murray, let me recognize Mr. Leo 
Verneti, vice president of the Inner Harmony Wellness Center, 
Clock Summit, PA, who is here traveling with Dr. Weil.
    Now, Senator Murray.
    Senator Murray. Well, thank you very much, Mr. Chairman. 
Thank you for having this hearing. I think that this is an 
issue that we really do need to focus on.
    And certainly consumers are looking more and more at 
alternative care, because they want to take control of their 
own lives and make choices for themselves that work well for 
them. And they are looking to a medical profession that, as you 
have correctly stated, has not been trained to give them the 
information they need.
    As a result, they look for information in wrong places. So 
I think it does behoove us to do the right thing, to provide 
people with good information.
    Dr. Weil, you were talking about medical education and what 
doctors receive. It seems to me that the mentality has been in 
our medical schools to treat diseases rather than preventive 
medicine. And alternative medicine often focuses on prevention. 
Is that whole philosophical issue what we really need to 
address?
    Dr. Weil. Sure. I think that--this is, I think, why it is a 
bit wrong to emphasize complementary and alternative medicine, 
because those terms suggest a focus on modalities. It is giving 
doctors other tools to put in their black bags. That is not 
what we should be focusing on.
    What we need is a shift in perspective in the way that 
doctors are trained toward an emphasis on healing and on 
prevention, toward looking at new scientific models in which 
some of these unexplainable therapies might be explainable, 
towards a reemphasis of the doctor-patient relationship, toward 
a new way of interpreting placebo responses, that rather than 
seeing these as nuisances, they are really central to the 
practice of the medicine.
    They are healing responses. And if you can get the maximal 
placebo response with a minimal intervention, that is the best 
kind of medicine that you can do.
    So I think we have a chance now, because of economic 
factors, to really make a shift in perspective, which would be 
enormously beneficial to the enterprise of medicine and 
certainly to the public. And it would be a shame if we just get 
focused narrowly on studying particular modalities out there.
    Senator Murray. And it also goes directly to health care 
insurance and how medical needs are funded. If you have a 
disease, you are taken care of. If you go in and try to find 
out what to do because your mother had rheumatoid arthritis, 
what can I do now to make sure that I do not suffer those kinds 
of things.
    Dr. Weil. Exactly.
    Senator Murray. It is not covered.
    Dr. Weil. Exactly. I also think it would be a tragedy if 
integrative medicine becomes medicine of the affluent because 
insurers do not reimburse for it. So I think there is an urgent 
need to look at that. This should be medicine that is available 
to everybody.
    Senator Murray. All right. I had one other question, and it 
is a concern I have in general medicine that women are often 
excluded from trials. And certain conditions and diseases that 
affect women in particular are left out. How do we make sure 
that as we go down this road, women's conditions and diseases 
are not excluded?
    Dr. Weil. I could not agree with you more. One interesting 
historical observation: In 1810 Samuel Hahnemann, the inventor 
of homeopathy wrote a textbook of medical principles of how to 
study drugs. One of his principles was that drugs should be 
tested equally on men and women in case there are differences 
in gender.
    I mean, that is a basic common sense principle that we have 
ignored.
    Senator Murray. Right. Dr. Kreitzer, do you have any 
additional comments?
    Dr. Kreitzer. Senator Murray, I only had one additional 
comment, and that is that there is the opportunity in teaching 
preventative medicine to also begin teaching health 
professional students and medical students about self-care 
practices.
    And that, too, has been a long neglected area in the 
education of health professionals. And I think until we begin 
teaching people how to integrate this into their own life, it 
will be hard for that to be translated to care of patients and 
families.
    Dr. Weil. May I? I think that is an excellent point. I feel 
that doctors and other health professionals should be role 
models. They should be models of health, because the best way 
to teach is by example.
    I think one of the black marks against the way that we 
train health professionals currently is that it almost 
guarantees that people will come out of that system with 
unhealthy lifestyles.
    Senator Murray. And Senator Harkin, I would agree with you 
that we need to do a better job of teaching our kids about 
nutrition. But we have to teach their parents, too, which many 
parents are severely lacking in any kind of knowledge on that.
    Thank you, Mr. Chairman.
    Senator Specter. Thank you very much, Senator Murray.
    Dr. Weil, your work has certainly popularized integrative 
medicine, which I know is the term you prefer. We would be 
interested to hear from you your own personal experience as to 
how the response has grown. As I commented earlier, you were in 
Philadelphia a couple of weeks ago, and you drew a crowd of 
some 1,200 people to hear you speak with a substantial 
admission price. And you have been at this for some time. Could 
you tell us what the crowds were like when you started, what 
they were like when you finished your second book and your 
fifth book and your eighth book?
    Dr. Weil. Well, they were not very big back in the 1970s, 
when I started writing about this. And I think in the eighties 
what I saw was that there was a growing response from 
consumers, but essentially no response from academic medicine. 
And what I have seen, especially in the past 2 years, and I 
think especially in the past year, is increasing numbers of 
people in academic medicine who come and are interested, and I 
am invited to talk in venues about changes in medical 
education.
    Dr. Kreitzer and I are involved in an initiative that I 
think is most interesting, a consortium of deans of medical 
schools, who have indicated interest in this direction, to at 
least open the dialogue about how we could begin to bring this 
into medical curricula.
    Senator Specter. When you talk about consumers, let me 
interject this additional question. As I said at the outset, I 
was really surprised to find that 42 percent of Americans who 
get health care are looking to integrated alternative and 
complementary medicine at $27 billion a year.
    Now, when the consumers start to pay attention, then the 
Congress pays even more attention, because consumers vote. And 
there is a certain lag between what the consumers are doing, 
what the Congress recognizes, and even a greater lag, perhaps, 
as to what the established medical profession is willing to 
undertake.
    I am impressed with what you have to say about the need for 
more education in the field. What concretely would you like to 
see done to stimulate medical education in integrative 
medicine?
    Dr. Weil. I would like to see funding made available to 
programs like we have at our two universities, which are 
beginning the process of developing curriculum and developing 
new models for training for physicians.
    Senator Specter. Well, you already have the programs. How 
about funding for schools that do not have the programs?
    Dr. Weil. I am all for that. And what we would like to do 
is develop models that can be replicated around the country.
    Senator Specter. Dr. Kreitzer, you comment that you have 
had this educational approach for some time. Have you had it 
long enough for your doctors to have graduated, who have a feel 
for complementary alternative integrative medicine to see if 
they have taken the gospel from the classroom to the 
practitioner's office?
    Dr. Kreitzer. No, Senator Specter. We are quite early in 
our process. Our medical students this fall will be the first 
medical students for whom we have developed a 4-year curriculum 
to integrate integrative medicine into medical school.
    And I think while both Dr. Weil's program and my program 
are established programs, the funding needs are very, very 
critical. I think both programs receive very minimal support 
from our respective institutions internally. And so we really 
rely very much on grants, philanthropy, other sources of 
support.
    Senator Specter. Dr. Weil, I am not sure that it is your 
most profound statement today among many, but your comment 
about hospital food is certainly 100 percent consensus getter. 
And your comment about food in the cafeterias at places where 
the operators ought to know better. Now the big question for 
you is: What is the cafeteria like at your place?
    Dr. Weil. We have--of all the radical things that we have 
been able to accomplish out there, bringing energy healers in 
to work with our physicians, beginning to teach elements of 
quantum and chaos theory to physicians, we have not made an 
inch of progress in getting the food improved in the university 
cafeteria. And----
    Senator Specter. How do you expect to change America, if 
you cannot change your own cafeteria?
    Dr. Weil. I think that comes from my other area of work, 
that is, raising the awareness of consumers to the point that 
they get angry enough to bring pressure on institutions and the 
big food service companies to make some changes here.
    Senator Specter. Give TV a sound bite, Dr. Weil, 17 seconds 
or less. What is your prescription for Americans on diet?
    Dr. Weil. To eat less refined and processed food of all 
kinds, more whole and natural foods. I think that is the best 
thing that we could do. The growth of fast food in this country 
and throughout the world is a disaster for our health.
    Senator Specter. Is it practical to eat five fruits every 
day?
    Dr. Weil. It is absolutely practical to eat five fruits 
every day.
    Senator Specter. How many do you eat? Let us get personal.
    Dr. Weil. Well, it varies. When I am on a book tour, that 
is not fair.
    But I had a big plate of melon this morning.
    Senator Specter. My red light is on.
    Senator Harkin.
    Senator Harkin. I do not have any follow-ups. I appreciate 
all that you are doing out there. And I think we are making 
some great progress.
    American people--you see, I think people by and large, if 
they just sort of listen to their own bodies and think about 
what is happening to them, and if they have information, can 
make pretty darn good judgments about what is best for 
themselves. They just need the information. They need the 
support to enable them to make those kinds of decisions.
    Right now they are geared to only one decision-making 
route. And one of the purposes, hopefully, of this hearing, 
what you are doing and what we are trying to do through NCAM, 
is to again give people that power, the power that people need 
themselves to decide for themselves what is best.
    And while people may make mistakes, doctors make mistakes, 
too. And I think, I still think--I will just say it one more 
time for emphasis--if people have the knowledge and they have 
the education and they have the pathways, if they were given 
the time to listen to themselves and their own bodies, they 
will make the best decisions for themselves.
    Senator Specter. Thank you very much, Senator Harkin.
    Thank you, Dr. Weil and Dr. Kreitzer. We know you have 
other commitments. We really appreciate your being here.
    Dr. Weil. Thank you.
STATEMENT OF HERBERT BENSON, M.D., PRESIDENT, MIND/BODY 
            MEDICAL INSTITUTE, ASSOCIATE PROFESSOR OF 
            MEDICINE, HARVARD MEDICAL SCHOOL
ACCOMPANIED BY:
        JAMES M. CASSIDY
        KRISTEN MAGNACCA
    Senator Specter. We would like to turn now to panel three, 
Dr. Herbert Benson and Mr. James Cassidy and Ms. Kristen 
Magnacca.
    Dr. Benson is a founding president of the Mind/Body Medical 
Institute at Harvard Medical School, where he is associate 
professor of medicine, also chief of the Division of Behavioral 
Medicine at the Beth Israel Deaconess Medical Center, a 
graduate of Wesleyan University at Harvard Medical School, 
author or co-author of 150 scientific publications and 5 books. 
And as I said earlier, someone whose writings I had read and 
had consulted sometime ago.
    Dr. Benson, you have two of your patients with you. And you 
have a demonstration of the protocol and procedures of yours.
    Dr. Benson. Thank you, Senator Specter, Senator Harkin, 
members of the committee. It is a delight to be here testifying 
before the committee. And I am wondering, because of the time, 
whether I might change the order a bit and start off with our 
two patients and then go on to an explanation of what was 
occurring.
    Senator Specter. Dr. Benson, your option.
    Dr. Benson. Thank you.
    Mr. Cassidy.

                 Summary Statement of James M. Cassidy

    Mr. Cassidy. Thank you, Dr. Benson.
    Thank you, Senator Specter and Senator Harkin. It is a 
pleasure to be down here from Boston, MA, this morning, where 
it is raining cats and dogs.
    I wanted to tell you that I am a patient of the Cardiac 
Wellness Program at the Beth Israel Deaconess Hospital. And 
what you are looking at is one of the success stories, I hope. 
So what you see is what you get. And I am going to give you a 
brief statement of my time of 1 year with the Cardiac Wellness 
Program, which started just a year ago.
    In May of 1990 at the age of 64, I had major open heart 
surgery, a four-way artery bypass at the Deaconess Hospital, 
Boston, MA, covered by medical insurance at a cost of 
approximately $100,000, and that was back in the year 1990. 
After successful surgery and recuperation, I wandered through 
the next 8 years without any particular motivation to stay 
well.
    Despite my cardiologist's warnings to keep my weight down, 
a sensible diet plan and exercise, I continued to put on weight 
and to generally get out of condition. For example, difficulty 
in breathing, some angina pain, susceptible to colds and other 
illnesses, and of course asking for major trouble.
    My salvation came in the mail on January 1999 when my 
medical insurance company--that is GIC. That is the Group 
Insurance Commission in Boston--offered to cover my entire cost 
in the Cardiac Rehabilitation Program offered by the Beth 
Israel Deaconess Medical Center in Boston, MA.
    Since I had retired from full-time employment, I decided to 
make a New Year's resolution and to devote the year 1999 to the 
program and to see what would happen.
    Senator Specter. The child is--you can stay.
    Ms. Magnacca. I am sorry.
    Senator Specter. Come on back. You are fine.
    Go ahead, Mr. Cassidy. You can handle it.
    Dr. Benson. The witness is an ex-radio announcer. So I 
think he could handle this.
    Mr. Cassidy. I know the hearing is glad to see a baby in 
here.
    Senator Specter. When I was sworn in as an assistant 
district attorney, my 20-month-old son rushed to the front of 
the courtroom. So I am very sympathetic here.
    Mr. Cassidy. Thank you, Senator.
    I had previously entered several short-time programs, but 
did not stay committed. I was very motivated to succeed in this 
wellness program, as the long-term goals of the program kept me 
focused on practical goals as I followed every directive 
throughout the entire year.
    The expert staff were instrumental in guiding and 
motivating each class through weekly sessions of moderate 
exercise, relaxation response sessions, proper nutrition that 
you could live with, and interrelationship dialogue, all 
designed to motivate similar cardiac patients in group therapy. 
I think this group dialogue we had was most important to keep 
us motivated.
    As I saw and felt improvements in my own health, appearance 
and general activity on life, I slowly changed my whole 
attitude, became less stressful, less negative, ate sensibly 
and lost weight as I entered into a new lifestyle.
    The program is designed for slackers and procrastinators, 
such as myself. I actually looked forward to each weekly 
session with the staff and the patients, who had now become my 
friends as we discussed mutual concerns. Do not forget, we are 
all involved in cardiac programs, so we had something in 
common.
    The motivation continued at home during the week with daily 
recitations of the relaxation response. We had tapes of 
beautiful, soothing surf, music, wonderful music. This is 
relaxing and really helps you. And breathing, important to 
breathe. So we had daily exercise and nutritional and sensible 
meals.
    There is a lot of interesting and delicious low calorie and 
no fat food out there. And this is what I am still on. But yet, 
I am not suffering from it at all. It is wonderful.
    My medical record speaks for itself as to my health 
improvements. I have lost 50 pounds, my cholesterol is down 40 
points into a very safe level, normal blood pressure, waist is 
minus 7 inches and still counting. I am feeling healthier, more 
alive and ready to take on new challenges, as I am now really 
enjoying my golden years with a good quality of----
    Senator Specter. Dr. Benson, you are up to 5 minutes of 
your allotted 10. Now you are the master of ceremonies here, 
but I wanted to give you----
    Mr. Cassidy. I will go very quickly. I will just wind up 
here.
    I do a lot of work in this mind/body thing by local caring 
groups in the church, senior citizen and so forth. Today at 74 
years I continue my new healthier lifestyle. I want to say to 
you all that it is not all severe penance, sack cloth and 
ashes. We are allowed to celebrate special events, but 
moderation is the watch word.

                           PREPARED STATEMENT

    For instance, a week ago, Friday, March 17, I went out with 
my wife and enjoyed my traditional corn beef and cabbage dinner 
and a lot of Irish music. But I did not end up with a gallon of 
Irish green beer, but rather black coffee and a clear head.
    Thank you very much.
    [The statement follows:]
                  Prepared Statement of James Cassidy
    In May of 1990, at the age of 64, I had major open-heart surgery, a 
four-way artery bypass at the Deaconess Hospital, Boston, MA. covered 
by medical insurance company at a cost of approximately $100,000.
    After successful surgery and recuperation, I wandered through the 
next eight years without any particular motivation to stay well. 
Despite my cardiologist's warnings to keep my weight down, a sensible 
diet plan and exercise, I continued to put on weight and to generally 
get out of condition--difficulty in breathing, some angina pain, 
susceptible to colds and other illnesses and of course asking for 
trouble.
    My salvation came in the mail on January, 1999 when my medical 
insurance company (GIC) Group Insurance Commission offered to cover my 
costs in the Cardiac Rehabilitation Program offered by the Beth Israel 
Deaconess Medical Center, Boston, MA.
    Since I had retired from full time employment, I decided to make a 
New Year's resolution and to devote the year 1999 to the program and to 
see what would happen.
    I had previously entered several short-term programs but did not 
stay committed. I was very motivated to succeed in this wellness 
program as the long-term goals of the program itself kept me focused on 
practical goals as I followed every directive throughout the year. The 
expert staff were instrumental in guiding and motivating each class 
through weekly sessions of moderate exercise, relaxation-response 
sessions, proper nutrition that you could live with and 
interrelationship dialogue all designed to motivate similar cardiac 
patients in group therapy.
    As I saw and felt improvements in my own health, appearance and 
general attitude on life, I slowly changed my whole attitude, became 
less stressful, less negative, ate sensibly and lost weight as I 
entered into a new life style.
    The program is designed for slackers and procrastinators such as 
myself. I actually looked forward to each weekly session with the staff 
and the patients who had now become my friends as we discussed mutual 
concerns.
    The motivation continued at home during the week with daily 
elicitation of the relaxation response (tapes of soothing surf, etc.), 
daily exercise and nutritional and sensible meals (there's a lot of 
interesting and delicious low calorie, no fat food out there).
    My medical record speaks for itself as to my health improvement: 
weight--lost 50 lbs., cholesterol--down 40 points into a very safe 
level, normal blood pressure, waist--minus 7 inches and counting.
    I'm feeling healthier, more alive and ready to take on new 
challenges as I am now really enjoying my golden years with a good 
quality of life, ready to turn over the vegetable garden and enjoy the 
ever increasing grandchildren, birthday parties, and computers, too.
    Mind, body, spirit--the stress reduction and spirituality aspect 
was important to improved health and manifested in my increased 
volunteering for many local caring activities in my church, Senior 
Citizen Center (Medical Transportation, Friendly visitors, Senior 
Sports), local American Legion Post and as an artist in local Artists' 
Associations.
    Today at 74 years I continue my new healthier lifestyle. I want to 
say to you all that it's not all severe penance, sackcloth and ashes--
we are allowed to celebrate special events--but moderation is the 
watchword. For instance, a week ago Friday, March 17th, I went out with 
my wife and enjoyed my traditional corned beef & cabbage dinner and 
Irish music--but I didn't end up with a gallon of Irish green beer, but 
rather black coffee and a clear head. And as usual, the next day I went 
to my YMCA working off those few extra calories and feeling great.

    Senator Specter. I thank you, Mr. Cassidy.
    Do you want to turn now to Ms. Magnacca?
    Dr. Benson. Please.

                 Summary statement of Kristen Magnacca

    Senator Specter. Ms. Magnacca is from Upton, MA, author of 
Girlfriend to Girlfriend, a fertility companion. She is here 
today to discuss her treatment experience at Harvard 
University's Mind/Body Clinic. And we thank the child on her 
lap, who ought to be a party to this. So welcome to both of you 
and your husband, who appears to be your husband.
    Ms. Magnacca. Yes.
    Senator Specter. He nods, but I do not want be too 
presumptive. And we will turn the time clock on again. Thank 
you.
    Ms. Magnacca. Thank you. Good morning. In 1997 I arrived at 
the Mind/Body Clinic for Women's Health a shattered woman. For 
3 years my husband Mark and I had been trying to have a baby. 
We began the journey through infertility, and our lives 
revolved around our childlessness. While praying to God for a 
baby and strength, we began high-tech fertility treatments. A 
year later, we thought our prayers had been answered when I 
became pregnant.
    As I wondered if our baby would have his father's soulful 
eyes or possibly my strawberry blond hair, our lives were 
crushed. I was faced with an atopic pregnancy, a life-
threatening medical emergency, and lost the baby. Due to 
surgical complications, I was left incontinent. I experienced a 
physical, emotional and spiritual crisis and fell into a 
depression.
    For months my husband watched as my anger at my body, my 
anger at myself, my anger at him and my intense anger at God 
for taking our child was slowly killing me. With our marriage 
deteriorating, my husband began calling the Mind/Body 
Infertility Clinic daily in hopes of getting into the program. 
We both needed help.
    I arrived at the first orientation class dragging my anger 
and pain with me. I was not convinced I wanted to be there. But 
as I listened to what the program offered, my anger began to 
melt, and I felt relief. I had found a group of compassionate 
experts, who knew what we were going through and could provide 
guidance. Mark and I dove into the program. With each class, I 
began to heal.
    As my spirit and old self reappeared, everything improved.
    My husband turned to me one day and said, ``Kristen, I have 
so missed the sound of your laughter. It is so wonderful to 
hear it again.'' I had not realized how long it had been since 
I felt joy.
    The tools I learned from the mind/body program, including 
how to elicit the relaxation response, allowed me to reconnect 
with my spirit and God. I felt as though my mind, body and soul 
were through the crisis period, and I found myself once again.
    It would be impossible for me to describe in words how I 
felt when I discovered I was pregnant during the course, 
especially when we had been told that I would never be able to 
have a baby naturally. For 9 months, my husband Mark and I 
joyfully awaited the birth of our child.
    On September 21, 1998, at 7:46 a.m., the miracle happened. 
I gave birth to a healthy baby boy, our son, Nicholas Armand 
Magnacca. He arrived with his father's soulful brown eyes and 
my strawberry blond hair, a 7 pounds, 7 ounce bundle of true 
miracle.

                           PREPARED STATEMENT

    I believe with all my heart that without the intervention 
and life skills that we learned through the Mind/Body Clinic, 
our son would not be with us today. I urge you to give your 
full support to this endeavor so that other women may have 
access to this incredible care and experience that I received 
from the Mind/Body Institution.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Kristen Magnacca
    Good morning, my name is Kristen Magnacca. In 1997 I arrived at the 
Beth Israel Deaconess Medical Center's Mind/Body Center for Women's 
Health a shattered woman.
    For three years my husband Mark and I had tried unsuccessfully to 
conceive a child. We were unexpectedly thrust into the world of 
infertility treatment; our life revolved around our childlessness.
    We obtained the best medical intervention and progressed along the 
road of assisted reproductive technologies, namely IUI's, or 
Intrauterine Insemination. Being raised in a devout Catholic family, I 
prayed to God, asking him to send me a baby and provide me with 
strength.
    It was determined that both my husband and I needed to have surgery 
to help correct our conditions. Following our surgeries, I completed 
three cycles of daily blood monitoring and ultrasounds culminating with 
medical instruction regarding nightly hormone injections.
    Our third cycle resulted in a low positive pregnancy test. We 
watched while holding our breath that the hormone level would rise, and 
it did. I will forever remember the words that came from my doctor: 
``Kristen, for the very first time in your life you may consider 
yourself pregnant!"
    As I wondered if our baby would have his father's soulful eyes or 
possibly his great grandfather's strawberry blond hair, I began to 
bleed. It was determined that this was an ectopic pregnancy, a life-
threatening situation. The embryo had implanted itself outside of my 
uterus and as a result of this my body began trying to expel the 
pregnancy. I was rushed by ambulance to the hospital in serious 
condition with extensive internal bleeding. My pregnancy could not 
continue.
    Due to surgical complications, I was left incontinent. We were also 
informed that due to problems from the ectopic pregnancy, the 
likelihood of a conceiving normally was non-existent. We would have to 
progress to in vitro fertilization, bypassing my tubes all together. I 
felt as though my body had failed me, I had no emotional strength left 
and that God had abandoned me. I rapidly fell into a depression and 
lost my will to go on. All at once I was experiencing a spiritual, 
physical and emotional crisis.
    For months, my husband watched as my anger at my body, my anger at 
him and my intense anger at God for taking our child was slowly killing 
me.
    With our marriage deteriorating, my husband began calling the Mind/
Body Infertility Clinic daily in hopes of becoming participants. A 
close friend of ours had attended the clinic and thought that it would 
be beneficial given our circumstances. The class that was beginning in 
a few weeks' time was full. But through my husband's persistence and 
the clinic's compassion, we were allowed to join that group.
    We both needed intervention, and agreed to experience this course 
together in hopes of learning strategies to deal with our situation and 
life. If a baby would come of this experience, that would be glorious, 
but that was a secondary goal.
    I arrived at the first orientation class dragging my anger and pain 
with me. Then Dr. Ali Domar spoke. `` We are not going to talk about 
how bad infertility is, we all know that it is, we are going to give 
you strategies to deal with your situation and life.'' As I broke down 
in tears, feeling her unconditional understanding, my anger began to 
melt.
    Mark and I dove into the exercises, listening to the relaxation 
response tape before going to sleep, checking in with each other and 
questioning if we had elicited the relaxation response through 
``mini's.''
    Waves of stress released themselves from my body, and my focus 
began to return. Little by little I could see glimpses of my old self 
reappearing.
    The awareness that eliciting the relaxation response brought was 
life altering. I remember driving my Jeep to a doctor's appointment 
where we were about to discuss my next set of infertility options. As I 
looked down at my hands on my steering wheel, I realized that my 
knuckles were white from my unconscious grip on the wheel.
    A few weeks prior I would not even noticed my state, and would not 
have known to elicit the relaxation response through a ``mini.'' I 
visualized the warmth of a flowing stream of water entering through my 
head, washing away my unacknowledged stress. I was able to change my 
state in an instant by relying on the skills I had developed through 
the clinic.
    With each class I instilled the recommended changes. I began to eat 
a better diet and take nightly walks with my husband. On one of our 
walks my husband and I shared a moment of laughter. In the middle of 
the street he stopped and hugged me, saying, ``Kristen, I have missed 
the sound of your laughter, it's so wonderful to hear that again.'' I 
hadn't realized how long it had been since I had felt joy.
    Our marriage was on the mend; our communication had greatly 
improved. But most importantly, I allowed myself to be, in the 
quietness of my being.
    My new awareness didn't end with my physical self. I began to 
reconnect with my spirit and God through the quietude of the relaxation 
response. In the quiet I could start to rebuild my relationship with my 
Creator.
    As the weeks passed, I felt as though my mind, body and soul were 
through the crisis period and I could begin to move back into a more 
balanced state.
    The focus of my life had been our childlessness for what seemed a 
lifetime. Through the strategy of ``mindfulness'' I could now focus on 
being in a restaurant with my husband instead focusing on the couple 
next to us with their infant. I still longed for our child, but I re-
framed my life experience to ``mind'' how fortunate I was to be out 
with my husband and to have someone else cook me dinner!
    We decided to postpone our first cycle of in vitro fertilization 
(IVF) and instead focus on our marriage and our new skills.
    I began to come to terms with our fertility challenges. I finally 
accepted the fact that our child would have to be conceived in a room 
filled with medical experts, not within an intimate moment alone with 
my husband.
    However, despite what the doctors said, we discovered that I was 
pregnant, the natural way, two months after becoming participants at 
the Mind/Body Clinic. My mind, body and soul fell into alignment 
through the specific strategies the clinic taught, allowing for this 
unbelievable occurrence to take place.
    On September 21, 1998 at 7:46 am, what the conventional medical 
establishment said was impossible, happened. I gave birth to our son, 
Nicolas Armand Magnacca. He arrived with his father's soulful eyes and 
my grandfather's strawberry blonde hair; a 7lb, 7oz bundle of true 
miracle.
    Without the intervention and life altering skills that we learned 
through the mind/body clinic, I believe that our son would not be with 
us today.

    Senator Specter. Well, that is very impressive, Ms. 
Magnacca. Thank you very much.
    Dr. Benson, you said you were going to bring two witnesses. 
It looks like you brought three. So we will have to give you a 
little extra time.
    Dr. Benson. All right. I will cut down on my testimony.
    It is projected that spending on health care is likely to 
double----
    Senator Specter. Dr. Benson, we turned the clock back on. 
So you have the full 5 minutes.
    Dr. Benson. Thank you.
    Senator Specter, Senator Harkin, it is projected that 
spending on health care is likely to double to $2.1 trillion by 
the year 2007. That is a trillion dollars more than we are now 
spending. I propose that mind/body medicine holds great promise 
for the health care of the Nation and for reducing its cost.
    Consider for a moment that I was testifying about a new 
drug, and the scientific evidence indicated that this new drug 
could successfully treat a wide variety of prevalent medical 
conditions, conditions that lead to 60 to 90 percent of visits 
to health care professionals.
    Furthermore, consider that this drug could also prevent 
these conditions from occurring and recurring and that it was 
safe and without dangerous side effects. And consider that the 
new drug was demonstrated to decrease visits to physicians by 
as much as 50 percent and that this decrease could lead to 
annual cost savings of more than $54 billion.
    The discovery of such a drug would be front page news and 
immediately embraced. Scientific evidence now exists that mind/
body belief-related, spirituality-related therapies can now 
produce such clinical and economic benefits.
    Health and well-being are best conceptualized by the 
analogy of a three-legged stool. One leg is pharmaceuticals, a 
second leg is surgery and procedures, a third leg is self-care. 
Health and well-being are balanced and optimal when all three 
legs of the stool are in place.
    Self-care consists of health behaviors for which the 
patients themselves are responsible and includes mind/body 
approaches--that is, the relaxation response--the belief, the 
spirituality of the patient, and stress management, as well as 
including a profound influence on both nutrition and exercise.
    A most essential feature of this self-care leg is the 
relaxation response. Two steps are necessary to elicit it. The 
first is a repetition. A repetition can be a word, a sound, a 
phrase, a prayer, or even repetitive muscular activity. The 
second is to disregard other thoughts when they come to mind 
with the return to the repetition.
    When a relaxation response is elicited, there are profound 
physiologic changes, decreased metabolism, decreased heart 
rate, decreased breathing, decreased muscle blood flow, brain 
waves slow. And recently published data show that there are 
distinct brain wave mapping changes, FMRI changes, that occur.
    These changes are directly opposite to those of stress. And 
please remember that stress leads to over 60 percent of visits 
to health care professionals.
    To elicit the relaxation response, a person may choose any 
repetitive focus. But to combine its healing powers with the 
profound healing powers of belief and to ensure that the 
patient will adhere to the practice, the focus should be one in 
which the patient believes. It may be secular, or it may be 
religious.
    The Mind/Body Medical Institute has created clinical 
programs that offer a fully balanced three-legged stool and has 
established 12 affiliates throughout the United States to 
disseminate them. The programs can effectively treat the 
disorders that are caused or exacerbated by stress. These 
include hypertension, cardiac rhythm irregularities, many forms 
of chronic pain, insomnia, infertility and the symptoms of 
cancer of the symptoms of AIDS.
    These programs can reduce visits to HMOs by up to 50 
percent. And as noted above, such decreased visits could lead 
to cost savings of over $54 billion per year. The full 
integration of mind/body belief, spirituality related medicine 
is completely compatible with existing health care. Mind/body 
medicine responsibly fulfills the needs of our patients who 
want therapies, as you were pointing out, Senator Harkin, that 
enhance traditional medicine and do so in a scientifically 
established, safe and cost-savings fashion.

                           PREPARED STATEMENT

    In conclusion, I propose that in addition to increased NIH 
funding for mind/body medicine, that the Health Care Financing 
Administration establish large demonstration projects to 
definitely test the clinical efficacy of mind/body belief, 
spirituality related interventions and to assess their cost 
savings.
    These projects should start with medical conditions that 
are prevalent and expensive, such as the prevention and 
treatment of coronary artery disease, the treatment of chronic 
pain, and the treatment of women's disorders that include 
infertility.
    Thank you for having me.
    [The statement follows:]
                  Prepared Statement of Herbert Benson
    I'm delighted to be called to testify on mind-body medical 
interactions, their clinical applications and the need for their 
reimbursement.
    Before I start my testimony, let me say a few words about the Mind/
Body Medical Institute and the work I have been doing at the Harvard 
Medical School and its affiliated hospitals for the last thirty years. 
The Mind/Body Medical Institute is dedicated to performing research and 
to conducting teaching and training of health care professionals in 
mind-body and belief-related approaches and transmitting this 
information to the general public. The Institute is now in its twelfth 
year of existence. I occupy the Mind/Body Medical Institute Chair at 
the Harvard Medical School as an associate professor of medicine.
    It is projected that spending on healthcare is likely to double to 
$2.1 trillion by the year 2007 (Smith, et al., 1998). That's a trillion 
dollars more than we are spending now. Managed care savings have about 
run their course. What's driving this surge in costs? It is expensive 
prescription drugs, enthusiasm for new medical technology and greater 
freedom to visit medical specialists whenever patients desire to do so. 
Imaginative and responsible approaches to healthcare are needed. I 
propose that mind-body medicine, with its self-care and belief-related 
approaches, holds great promise for the nation's health and cost of 
healthcare (Friedman, et al., 1995).
    Consider for a moment that I were here today discussing a new drug 
and the scientific evidence indicated that this new drug could 
successfully treat a very wide variety of prevalent medical 
conditions--conditions that lead to 60 to 90 percent of visits to 
physicians. Furthermore, consider that it could also prevent these 
conditions from occurring and recurring, and was safe, without 
dangerous side effects. And, consider that the new drug was 
demonstrated to decrease visits to doctors by as much as 50 percent and 
that this decrease could lead to annual cost savings of more than $54 
billion (Benson, 1996). The discovery of such a drug would be front-
page news and immediately embraced. Such scientifically validated mind-
body belief-related therapies have been shown to produce such clinical 
and economic benefits, but as yet have not been so received.
    My testimony will be evidence-based; the data I will present will 
be scientific findings that have been published in peer-reviewed 
journals. Some of these data were evaluated and supported at a 1995 NIH 
Technology Assessment Conference
    I will cover the following categories: stress and the fight-or-
flight response; the relaxation response; the placebo effect--the 
importance of belief in healing; the three-legged stool--the importance 
of balanced self-care; and the need for large demonstration projects to 
definitively assess the efficacy of mind-body medicine.

                STRESS AND THE FIGHT-OR-FLIGHT RESPONSE
    Stress contributes to many of the medical conditions confronted by 
healthcare practitioners. In fact, when the reasons for patients' 
visits to physicians are examined, between 60 to 90 percent of visits 
to physicians are related to stress and other psychosocial factors 
(Cummings, VandenBos, 1981; Kroenke, Mangelsdorff, 1989). Current 
pharmaceutical and surgical approaches cannot adequately treat stress-
related illness. Mind-body approaches including the relaxation 
response, nutrition and exercise, cognitive restructuring and the 
beliefs of patients have been demonstrated to successfully treat such 
disorders. To better understand mind-body treatments it is best to 
first understand the physiology of the stress and the fight-or-flight 
response.
    Stress is defined as the perception of threat or danger that 
requires behavioral change. It results in increased metabolism, 
increased heart rate, increased blood pressure, increased rate of 
breathing and increased blood flow to the muscles. These internal 
physiologic changes prepare us to fight or run away and thus the stress 
reaction has been named the ``fight-or-flight'' response. The fight-or-
flight response was first described by the Harvard physiologist, Dr. 
Walter B. Cannon (1941) earlier in this century. It is mediated by 
increased release of catecholamines--epinephrine and norepinephrine 
(adrenalin and noradrenalin)--into the blood stream. The fight-or-
flight response occurs automatically when one experiences stress, 
without requiring the use of a technique.

                        THE RELAXATION RESPONSE
    Building on the work of Swiss Nobel laureate Dr. Walter R. Hess, my 
colleagues and I more than 25 years ago described a physiological 
response that is the opposite of the fight-or-flight response (Benson, 
1975). It results in decreased metabolism, decreased heart rate, 
decreased blood pressure, and decreased rate of breathing, as well as 
slower brain waves (Wallace, Benson, Wilson, 1971). We labeled this 
reaction the ``relaxation response'' (Benson, Beary, Carol, 1974). Most 
recently, Lazar et al used functional magnetic response imaging to 
establish that when the relaxation response is elicited there is 
activation in the brain of areas that control the autonomic nervous 
system--the areas that control, for example, metabolism, heart and 
breathing rates and blood pressure (Lazar et al, 2000, in press).
    Two steps are necessary to elicit the relaxation response. They 
are: (1) the repetition of a word, a sound, a prayer, a phrase, or 
muscular activity (2) the passive disregard of everyday thoughts that 
come to mind and a return to the repetition.
    One can choose any focus, but to enhance the benefits of the 
relaxation response with the healing effects of belief and to help 
ensure that a person will adhere to the routine, the focus should be 
one in which a person believes: if religious, a prayer could be chosen; 
if not, a secular focus. Regardless of the techniques or focus that one 
selects, the relaxation response will be evoked if one uses the two 
basic steps.
    There is no ``Benson technique'' for eliciting the relaxation 
response. In fact, my colleagues and I offer people a smorgasbord of 
techniques and focus words.
    The following are focus words, phrases, and prayers that are 
frequently used:
    Secular Focus Words:
    ``One''
    ``Ocean''
    ``Love''
    ``Peace''
    ``Calm''
    ``Relax''
    Religious Focus Words or Prayers:
    Christian (Protestant and Catholic):
    ``Our Father who art in heaven,''
    ``The Lord is my shepherd''
    Catholic:
    ``Hail, Mary, full of grace,''
    ``Lord Jesus Christ, have mercy on me''
    Jewish:
    ``Sh'ma Yisroel,''
    ``Shalom,''
    ``Echod,'' ``The Lord is my shepherd''
    Islamic: ``Insha'allah''
    Hindu: ``Om''
    Adherence to the two steps evokes the relaxation response. The 
following is a generic technique:
    Step 1. Pick a focus word or short phrase that's firmly rooted in 
your belief system.
    Step 2. Sit quietly in a comfortable position.
    Step 3. Close your eyes.
    Step 4. Relax your muscles.
    Step 5. Breathe slowly and naturally, and as you do, repeat your 
focus word, phrase, or prayer silently to yourself as you exhale.
    Step 6. Assume a passive attitude. Don't worry about how well 
you're doing. When other thoughts come to mind, simply say to yourself, 
``Oh, well,'' and gently return to the repetition.
    Step 7. Continue for ten to twenty minutes.
    Step 8. Do not stand immediately. Continue sitting quietly for a 
minute or so, allowing other thoughts to return. Then open your eyes 
and sit for another minute before rising.
    Step 9. Practice this technique once or twice daily.
    With this generic technique, you could sit quietly in a comfortable 
position, close your eyes, and relax your muscles. However, you can 
also elicit the relaxation response with your eyes open; kneeling; 
standing and swaying; or adopting the lotus position.
    You can also jog and elicit the relaxation response, paying 
attention to the cadence of your feet on the pavement ``left, right, 
left, right'' and when other thoughts come into mind simply say. ``Oh, 
well,'' and return to ``left, right, left, right.'' Of course you must 
keep your eyes open!
    Our research conducted at the Harvard Medical School as well as 
that of others has documented that relaxation-response approaches, 
generally used in combination with nutrition, exercise, and stress 
management interventions, result in alleviation of stress-related 
medical disorders. In fact, to the extent that stress causes or 
exacerbates any condition, mind-body approaches that invariably include 
the relaxation response have proven to be effective. Because of this 
scientifically documented efficacy, a physiological basis for many 
millennia-old mind-body belief-related approaches has been established 
and a great deal of initial professional skepticism has been overcome.
    It is essential to understand that regular elicitation of the 
relaxation response results in long-term physiologic changes that 
counteract the harmful effects of stress throughout the day, not only 
when the relaxation response is being brought forth (Hoffman, et al, 
1982). These mind-body approaches have been reported to be effective in 
the treatment of disorders that include hypertension (Stuart, et al, 
1987), cardiac arrhythmias (Benson, Alexander, Feldman, 1975), chronic 
pain (Caudill, et al., 1991), insomnia (Jacobs, et al, 1993; Jacobs et 
al, 1996), anxiety and mild and moderate depression (Benson et al., 
1978), premenstrual syndrome (Goodale, Domar, Benson, 1990), and 
infertility (Domar, Seibel, Benson, 1990).
    As a result of the evidence-based data, the relaxation response is 
becoming a part of mainstream medicine. Approximately 60 percent of US 
medical schools now teach the therapeutic use of relaxation-response 
techniques (Friedman, Zuttermeister, Benson, 1993). They are 
recommended therapy in standard medical textbooks and a majority of 
family practitioners now use them in their practices.
    The Mind/Body Medical Institute created mind-body group clinical 
programs that are built upon such evidence-based medicine. The groups 
are conducted by multidisciplinary teams comprised of physicians, 
psychologists, nurses, nutritionists, exercise physiologists, social 
workers and/or clergy. The components of the treatment are:
  --elicitation of the relaxation response, the physical state of deep 
        rest that changes the physical and emotional responses to 
        stress (e.g., decrease in heart rate, blood pressure, and 
        muscle tension). The relaxation response may be elicited by 
        secular or religious techniques. The patient makes a choice 
        that will adhere to his or her belief system.
  --cognitive-behavioral strategies to enhance coping skills
  --exercise/activity programs
  --nutrition management
    Medications are monitored and may be adjusted. This is done in 
consultation with the patients' physicians.
    The program goals are to:
  --bring about a reduction in symptoms
  --develop an understanding of the disease or symptom process
  --regain a sense of control and well-being
  --modify factors or situations-such as lifestyle, diet, stress, or 
        physical tension-that contribute to symptoms
    The mind-body medical clinic programs available include:
  --Medical Symptom Reduction for general stress-related physical 
        symptoms such as headache, GI disorder, palpitations, fatigue
  --Infertility
  --HIV+/AIDS
  --Cancer
  --Chronic Pain/Chronic Fatigue Syndrome
  --Insomnia
  --Chemotherapy and Radiation Therapy (one session)
  --Pre-medical, Surgical or Radiological Procedures (one session)
  --Cardiac Wellness Programs for patients with hypertension, lipid 
        disorders, diabetes, arrhythmias and/or heart disease
  --Perimenopause/Menopause
    The mind-body medical clinical program visits include:
  --one initial assessment
  --nine to thirteen 2 hour weekly visits depending on the program
  --one discharge assessment
       the placebo effect and the importance of belief in healing
    The importance of mind-body interactions in healing is also 
profoundly evidenced by the beliefs of the patient. The effects of 
belief have been called the ``placebo effect.'' Throughout history, 
medicine and healing have relied heavily on non-specific factors such 
as the placebo effect (Benson and Friedman, 1996). In other words, what 
patients believe, think and feel can have profound effects on the body 
and physicians and other healers have historically appreciated the 
effects of both positive and negative emotions.
    However, modern medicine has largely disregarded and ridiculed the 
importance of the placebo effect by using such statements as, ``It's 
all in your head,'' ``It's just the placebo effect,'' or ``It's a dummy 
pill.'' These pejorative terms arose gradually over a period of decades 
as specific remedies for specific illnesses were developed and the 
reliance on what is now called non-specific healing factors--the 
placebo effect--diminished. Because the specific therapies were and 
are, so dramatically effective, they became the sole treatments 
utilized.
    Specific treatments such as insulin, antibiotics and cataract 
surgery are truly awe-inspiring. The result was that mind-body 
approaches were largely forgotten and pushed aside as the wondrous 
modern pharmaceuticals and surgeries and procedures advanced. Rather 
than using a combination of specific and non-specific, belief-related 
therapies to promote healing, modern medicine has come to value and to 
rely exclusively on the specific effects of pharmacological and 
procedural interventions. It ignores the healing powers of belief.
    The pioneering work of Beecher (1955) established that in patients 
with conditions of pain, cough, drug-induced mood changes, headaches, 
seasickness, and the common cold, the placebo effect was effective in 
35 percent of the cases. Since these early findings, the placebo effect 
has been documented to be effective in 50 to 90 percent of diseases 
that include bronchial asthma, duodenal ulcer, angina pectoris, and 
herpes simplex (Benson and Friedman, 1996; Benson, 1996).
    The placebo effect is dependent on three sets of beliefs: (1) the 
beliefs of the patient; (2) the beliefs of the healthcare provider (the 
healer); and (3) the beliefs that ensue from the relationship between 
the healthcare provider and the patient.
    A study of Japanese students who were allergic to the wax of a 
lacquer tree, which produces a rash similar to that of poison ivy, 
provides one demonstration of the power of the belief of patient (Ikemi 
and Nakagawa, 1962). The students were first blindfolded and then told 
that one of their arms would be stroked with lacquer tree leaves, and 
that their other arm would be stroked with chestnut tree leaves, to 
which they were not allergic. However, the researchers switched the 
leaves. The skin that the subjects believed to have been brushed with 
the lacquer leaves, but that was actually stroked with chestnut tree 
leaves, developed a rash. The skin that had actual contact with the 
leaves of the lacquer tree, but that was believed to have been stroked 
with the chestnut tree leaves, did not react.
    A study of treatments for angina pectoris provides an example of 
how beliefs of the healthcare practitioner can affect disease (Benson 
and McCallie, 1979). A number of therapies for angina pectoris have 
been used throughout the decades that are now known to have no 
therapeutic value. These include vitamin E and bizarre internal mammary 
artery surgeries. When they were used and believed in by physicians, 
they had a dramatic effect. They were found to be 70 to 90 percent 
effective in relieving the pain of angina pectoris. Not only would the 
pain disappear, but the patients' electrocardiograms and exercise 
tolerance would improve. However, when these therapies were later 
invalidated and no longer believed in by physicians, their 
effectiveness dropped to 30 percent or lower.
    The beliefs that ensue from the relationship between physicians and 
patients are the third component of the placebo effect. A study by 
researchers at the Massachusetts General Hospital (Egbert, et al., 
1964) compared two matched groups of patients who were to undergo 
similar operations. The doctors responsible for their anesthesia 
visited both groups of patients, but interacted with them quite 
differently. They made only cursory remarks to patients in one group, 
but treated the other group with warm and sympathetic attention, 
detailing the steps of the operation and describing the pain they would 
experience. The patients who received the friendlier more supportive 
visits were discharged from the hospital an average of 2.7 days sooner 
and asked for half the amount of pain-alleviating medication than 
patients in the other group.
    Some insight into the possible brain mechanisms for the placebo 
effect is provided in a study conducted by Dr. Steven Kosslyn (Kosslyn, 
et al., 1993). He and his colleagues examined how the brain processes 
information, both real and imagined. Subjects were asked to look at a 
grid with a letter printed on it. As they did so, a PET Scan was used 
to determine what areas of the brain were active in seeing the grid and 
the letter. The subjects were then asked to look at the same grid 
without the letter on it, but asked to visualize the letter in their 
mind's eye. The PET scan was then repeated. The same area of the brain 
was stimulated in both situations. In other words, from the brain's 
perspective the visualization of a scene is similar to actually seeing 
the scene.
    This process helps to explain the placebo effect. All of our 
thoughts, actions, and memories, represent the activation of specific 
brain connections. Pain in an arm or leg is represented as activation 
of specific brain areas. There are memories in our brains of pain. 
There are also memories of being without pains. There are also brain 
connections for having a skin rash and of being without a skin rash. 
Thus, belief in a sugar pill or an inactive therapy can result in 
activating the brain connections to ``remember'' what it is to be 
without the pain or the rash. The pain or rash can be thus alleviated. 
In other words, thoughts can activate brain connections that can result 
in physical healing.
    The biased words ``placebo effect'' should be discarded and changed 
to ``remembered wellness.'' Remembered wellness is what explains this 
powerful mind-body belief reaction and the words, remembered wellness, 
have a positive connotation.
    Placebos are not the only way to evoke remembered wellness. 
Consider the most profound belief Americans share. Ninety-five percent 
of the U.S. population believe in God (Gallup, 1990). Research by 
different investigators working in different locations throughout the 
United States have repeatedly demonstrated a connection amongst 
religious beliefs and greater well-being, better quality of life, and 
lower rates of depression, anxiety and substance abuse (Koenig, 1998). 
Religious beliefs and practices have been associated with decreased 
mortality and enhanced physical health (Koenig, et al, 1997; 1998). 
They are also associated with a lower use of expensive health services 
(Koenig, Larson, 1998). Recently, such research has appeared in 
respected medical journals and has begun to influence both the 
education of physicians and the practice of medicine (Marwick, 1995; 
Levin et al., 1997).
    The effects of the relaxation response should not be confused with 
remembered wellness (the placebo effect). The relaxation response is a 
specific, proven mind-body intervention. The measurable, predictable, 
and reproducible changes of the relaxation response will occur when you 
follow the two specific steps--belief is not essential. It is like 
penicillin--it will work whether believed in or not.
    the three-legged stool and the importance of balanced self-care
    Health and well being and the incorporation of mind-body therapies 
in medical care are best conceptualized in terms of an analogy of a 
three-legged stool (Benson and Friedman, 1996; Benson, 1996). One leg 
is pharmaceuticals, the second is surgery and procedures, and the third 
leg is self-care. Self-care consists of health habits and behaviors for 
which patients themselves can be responsible. Specifically, self-care 
includes the relaxation response, beliefs, stress management, nutrition 
and exercise. Health and well-being are balanced and optimal when all 
three legs of the stool are in place. Of course, attention to nutrition 
and exercise has been recognized for centuries. In contrast, the 
scientific documentation of mind-body interactions has only recently 
been presented.
    For more than a hundred years medicine has relied almost 
exclusively on the first two legs of the stool: pharmaceuticals and 
surgery. Without the support of the third leg through mind-body and 
belief-related approaches, the treatment of many medical conditions is 
unbalanced and inadequate. Patients receive less than optimal clinical 
care and the care they receive is more costly.
    Mind-body medicine is different from what is called alternative and 
complementary medicine. Mind-body medicine is evidence-based whereas 
alternative medicine is not. If alternative medicine were evidence-
based, it would no longer be alternative. Secondarily, alternative 
medicine is akin to the first two legs of the three-legged stool--there 
is little difference between an herb and a pharmaceutical or between 
acupuncture and surgery. They are both given to or conducted on the 
patient. In contrast, self-care is performed by the patient. Finally, 
alternative medicine is cost additive whereas self-care saves money.
    One example of how mind-body group programs can reduce costs was 
shown through a study conducted at the Harvard Community Health Plan 
(Hellman, et al., 1990). Two group mind-body interventions that evoke 
the relaxation response were compared among high-utilizing primary care 
patients who experienced physical symptoms which had psychosocial 
components. The symptoms included palpitations, shortness of breath, 
gastrointestinal complaints, headaches, and sleeplessness. Both 
interventions offered patients educational materials, relaxation-
response training, and awareness training, and both included cognitive 
restructuring. These groups were compared with a randomized control 
group that received only information about stress management, not the 
actual interventions. Six months after treatment only the patients in 
the mind-body groups reported less physical and psychological 
discomfort and averaged about 50 percent fewer visits to the health 
plan than the patients in the control group. The estimated net savings 
to the HMO above the cost of the intervention for the mind-body 
patients was $85 per participant in the first 6 months.
    Chronic pain and insomnia are two other examples of the successful 
integration into mainstream medicine of mind-body interventions (NIH 
Technology Assessment Panel on Integration of Behavioral and Relaxation 
Approaches Into the Treatment of Chronic Pain and Insomnia, 1996). 
Millions of Americans are in chronic pain, which by definition, is pain 
that cannot be eliminated, but must be managed. Chronic pain sufferers, 
motivated both by medical and emotional factors, often become frequent 
users of the medical system. The treatment of chronic pain becomes 
extremely costly and frustrating for patients and healthcare providers. 
In one study, clinic usage was assessed among chronic pain patients at 
an HMO who participated in an outpatient mind-body group program, of 
which the relaxation response was an integral part (Caudill, et al., 
1991). In addition to decreases in the severity of pain as well as in 
anxiety, depression and anger, there was a 36 percent reduction in 
clinic visits among program participants for over two years following 
the intervention as compared to their clinic usage prior to the 
intervention. In the 109 patients studied, the decreased visits 
projected to estimated net savings of $12,000 for the first year 
following treatment and $24,000 for the second year.
    Another example of how these same mind-body group interventions can 
result in better medical care and reduce medical costs is in the 
treatment of another extremely common disorder, insomnia (NIH 
Technology Assessment Panel on Integration of Behavioral and Relaxation 
Approaches Into the Treatment of chronic Pain and Insomnia, 1996). 
Approximately 35 percent of the adult population experiences insomnia. 
Half of these insomniacs consider it a serious problem. Billions of 
dollars are spent each year on sleeping medications, making insomnia an 
extremely expensive condition. In fact, the direct costs to the nation 
are approximately $15.4 billion yearly and the actual costs in terms of 
reduced quality of life, lowered productivity and increased morbidity 
are astronomical. Although frequently employed, sleeping pills are not 
effective in the long term. The shortcomings of such drug therapy, 
along with recognition of the role of behavioral features of insomnia, 
prompted the development of mind-body behavioral interventions for this 
condition. Researchers at our laboratories at the Mind/Body Medical 
Institute studied the efficacy of a multifactorial behavioral 
intervention for insomnia that included relaxation-response training. 
Compared to controls, those subjects who received behavioral and 
relaxation-response treatment showed significantly more improvement in 
sleep patterns. On average, before treatment it took patients 78 
minutes to fall asleep. After treatment, it took 19 minutes. Patients 
who received behavioral and relaxation response treatment became 
indistinguishable from normal sleepers. In fact, the 75 percent 
reduction in sleep-onset latency observed in the treated group is the 
highest ever reported in the literature (Jacobs, G.D. et al, 1993; 
Jacobs, Benson, Friedman, 1996).
    It is also important to remember that the research on mind-body, 
behavioral therapies in the treatment of both chronic pain and insomnia 
were reviewed in 1995 at a NIH Technology and Assessment Conference. 
The planning committee chairman was my late friend and colleague Dr. 
Richard Friedman. Dr. Julius Richmond, former Surgeon General of the 
United States Public Health Service and Assistant Secretary for Health 
of the Department of Health and Human Services under President Carter, 
was the chair of the independent panel (before he became a trustee of 
the Mind/Body Medical Institute) that reviewed the evidence. Dr. 
Richmond stated in a press conference that it was ``imperative'' that 
these interventions be integrated into routine medical care.
    As I noted earlier, if medical care continues to be based only on 
two legs, it is estimated that the costs for this care will double in 
the next decade (Smith, et al., 1998). Mind-body programs are 
scientifically proven strategies that can be thoroughly integrated with 
pharmaceuticals and surgery and procedures and, they offer cost 
savings. I've also noted that 60 to 90 percent of physician office 
visits are related to stress-related conditions. To estimate the monies 
that could be saved per year by the application of mind-body therapies, 
I used 75 percent as an average. I estimated that half of these doctor 
office visits--or 37.5 percent--could be eliminated with a greater use 
of mind-body approaches. Using 1994 statistics, there were 
approximately 670,000 practicing physicians in the United States who 
reported an average of 74.2 patient visits per doctor per week, for a 
total of 3,858.4 office visits per doctor that year. Each visit for an 
established patient cost an average of $56.2. Thus, the average cost 
per year was 670,000<greek-e>3,858.4<greek-e>$56.2 = $145.3 billion. By 
reducing these visits by 37.5 percent, the cost savings would be $54.5 
billion, for one year alone (Benson, 1996).
    The full integration of mind/body, self-care medicine is completely 
compatible with existing healthcare approaches. The integration is 
important not only for better health and well-being, but also for a 
more economically-feasible healthcare system. Mind-body medicine 
responsibly fulfills the needs of our people who want therapies that 
enhance and complement traditional medicine and that do so in a 
scientifically-established, safe, and cost-savings fashion. Mind-body 
and belief-related interventions hold such promise that they should be 
further researched, advocated and utilized for the health and well-
being of the people of our nation.

                    PROPOSED DEMONSTRATION PROJECTS
    I propose that the Health Care Financing Administration establish 
large demonstration projects to definitively test the clinical efficacy 
of mind-body and belief-related interventions and to assess the cost-
savings afforded by such approaches. These projects should start with 
medical conditions that are prevalent and expensive, such as, the 
prevention and treatment of coronary artery disease; the treatment of 
chronic pain; and the treatment of women's disorders including 
infertility.

    Senator Specter. Dr. Benson, thank you very much for that 
testimony and for bringing Ms. Magnacca and Mr. Cassidy here 
today. Very informational and really very helpful.
    As noted earlier, but worth repeating, the mind/body 
medicine funding started in 1998 at $54.9 million and is now in 
excess of $125 million. And we would be interested in knowing 
your personal response, since you began to press mind/body as 
one of the national/international experts. I have commented 
about a back problem, which I developed after losing an 
election in 1973.
    And I was skeptical at the time that there was any 
connection. And since, I have come to believe that there was a 
causal connection.
    But there is, I think fairly stated, a great deal of 
skepticism among most people about the mind/body connection. 
When you talk about a cure for cancer and you talk about 
beliefs, would you amplify how in a medical context--and you 
are a distinguished cardiologist--that works? How does the work 
range from mind to belief to body on something as difficult as 
cancer?
    Dr. Benson. To the best of my knowledge, there is no 
evidence that stress or mind/body reactions either cause or can 
reverse cancer. But what we are effective in doing is changing 
the symptomotology that a patient recognizes or experiences 
when they have cancer. If a woman learns she has breast cancer, 
she is no longer Jane Smith. She is Jane Smith, breast cancer 
patient. And frequently, the symptoms come not from the cancer 
itself, but from the knowledge of being a different person and 
the stress of having to adjust to it. It is those symptoms we 
can effectively treat.
    However, Senator, there are many conditions that are 
directly affected by stress.
    Senator Specter. Such as?
    Dr. Benson. For example, tension headaches. Many forms of 
hypertension are directly related to stress.
    Senator Specter. How about back pain?
    Dr. Benson. Back pain. Pain indeed is often a memory of a 
pain itself that stress can exacerbate. If you can turn off 
that memory by a belief system, by remembering what it was to 
be without the pain, remembering wellness, if you will, 
remembered wellness is our term to describe the placebo effect, 
it is a way of dissociating the pain and forgetting the pain 
and, in many cases, the pain can be alleviated.
    Insomnia, for example, affects 60 million Americans. Our 
clinics are now having published results which are showing a 
75-percent cure rate of insomnia, which has a cost to the 
Nation of literally hundreds of billions of dollars a year 
because of the problems of insomnia.
    Senator Specter. Dr. Benson, what has been the public's 
reaction to the mind/body approach? What differences have you 
noted since you began your career? I would be interested in 
when that was when you started to develop your approach to 
mind/body and how it has expanded and become better accepted.
    Dr. Benson. My career dates back to my fellowship at 
Harvard Medical School in the department of physiology. And 
that--actually, it goes further back. It goes back to my very 
training at Harvard Medical School. Mind/body was unaccepted as 
a discipline at the time. In fact, when I started studying 
stress, I was told I was throwing away, in effect, a promising 
career to do so.
    The change has been spectacular. The acceptance by mind/
body is now widespread. There is a marked gender difference in 
understanding mind/body. For women, there is no issue in 
understanding that mind has a profound influence on body. Men 
often need a disease condition to be convinced that that 
reaction is there.
    I think because of the fact that the scientific data have 
now established this, the establishment itself is now widely 
accepting mind/body as a direction to go.
    Senator Specter. Are the HMOs funding the medical 
treatments related to mind/body? Have you persuaded HMOs about 
that $54 billion figure?
    Dr. Benson. Yes, Senator, it is a major issue, but I am 
proud to say in Massachusetts our programs are largely covered 
by HMOs. It is our goal to extend this nationally now. And 
therein lies the issue. Namely, we are training health care 
professionals and people from HMOs themselves. But the fact is 
that they often do not change their billing practices.
    Ninety-nine percent of physicians believe that belief can 
heal, and religious belief can heal. Ninety-four percent of HMO 
executives believe the same. Yet only 10 percent of HMO 
executives have instituted such plans into their own practices. 
The data are there.
    As I pointed out, this is an intervention that can 
effectively treat 60 to 90 percent of visits to physicians. A 
change must occur. And the way people recognize that disease 
comes not only, or disease need only be treated by the first 
two legs of the three-legged stool, namely pharmaceuticals, 
herbs or acupuncture and surgery.
    These are procedures done to people. What we are talking 
about is what people can do for themselves. There is a profound 
desire for people to do this. We recognize that and get these 
services paid for.
    Senator Specter. Thank you very much, Dr. Benson.
    Senator Harkin.
    Senator Harkin. Thank you very much, Dr. Benson, for being 
here and bringing these two witnesses, who----
    Senator Specter. Three witnesses.
    Senator Harkin. Three witnesses. Thank you, Mr. Chairman. 
That is why you are chairman. You recognize those things.
    Because I believe what you just told, both you, Mr. Cassidy 
and Ms. Magnacca, really, I think, illustrate the efficacy of 
different approaches to healing and well-being.
    I agree with you, Dr. Benson, that in the realm of well-
being, that we have given short shrift to what you say should 
be discarded as the placebo effect. I agree with you. That word 
ought to be discarded. I do not think it has a place. It is a 
pejorative type of a term. And we ought to get rid of it, 
because the mind does have a lot to do with how we are and what 
we do and how we feel and our well-being.
    So everything you have done in all your research, I think, 
points to that. You and I are both on the advisory committee of 
a group called the inter-faith coalition for spiritual 
counseling and healing. And again, I believe these types of 
groups can add a lot to our health care system in America.
    I might disagree with you a little bit, a couple of 
percentage points here, when you say mind/body medicine is 
different from what we call alternative and complementary 
medicine. Mind/body medicine is evidenced based, whereas 
alternative medicine is not. If alternative medicine were 
evidenced based, it would no longer be alternative. You say 
that alternative medicine is akin to the first two legs of this 
three-legged stool. Finally, alternative medicine is cost 
additive, where self-care saves money.
    Well, that is kind of where I depart a little bit there 
from you. I think that a lot of alternative medicine has been 
evidenced based. But we have a different paradigm in how we 
look at the evidence for medical care in this country. 
Acupuncture, for example, has been well known for years to 
alleviate pain.
    I am not going to bore you with the whole story of my 
brother and acupuncture and watching medical doctors watch an 
acupuncturist relieve his pain, when he was dying of cancer. 
But it has been evidenced based. The evidence is there, but we 
have not looked at it.
    So I think a lot of alternative and complementary medicine 
has been quite adequately evidenced based, just not in our 
frame of reference. That is all.
    Second, I do not think that complementary alternative 
medicine is cost additive. I think it can replace a lot of the 
traditional forms of medicine that we are now doing. Take St. 
John's Wort, for example. If St. John's Wort--I think it is 
proving to be quite an acceptable regime for depression. And it 
is a lot more inexpensive, for example, than taking the 
pharmaceutical drugs for depression.
    So I just want to tell you, because those words leaped out 
at me. And I hope that perhaps, since you are a friend of mine, 
we might discuss this later on.
    Dr. Benson. Fair enough. May I respond briefly now?
    Senator Harkin. Sure. Sure.
    Dr. Benson. With respect to evidenced based, the question I 
have is that there is no--let me state that I do believe that 
alternative medicines help a great many people. Clearly there 
are testimonies and there are studies to this effect.
    The question I have, is it really the alternative medicine 
working or might not it be the belief in the alternative 
medicine that is working?
    And I will not deny that many of our routine medicine may 
work, not because of their inherent pharmaceutical, but because 
of the belief in that pharmaceutical. What I am trying to 
emphasize is the extraordinary power of belief that we in 
medicine have ridiculed for more than 100 years. Yet the 
placebo effect that I now would like to call remembered 
wellness is effective in 50 to 90 percent of diseases that 
include angina pectoris, asthmas, skin rashes, rheumatoid 
arthritis, congestive failure.
    I think alternative medicine should be explored. I wholly 
agree with that. But let us control and that we not ascribe to 
the alternative medicine what is truly the--may be the belief 
in the alternative medicine.
    Senator Harkin. I guess my response is, what difference 
does it make? I mean, if someone is taking an herbal remedy and 
it helps them and they feel better and they are healthier--I 
mean, I have talked to people who have taken Chinese herbs that 
get rid of asthma, for example. Now you might say it does not, 
but they believe it does. So what?
    Dr. Benson. I thoroughly agree with that, Senator, but what 
it does do is diminish the knowledge and the use of what our 
true power is; that is our power of belief. As humans, we have 
come to believe that something done to us, be it an herb or a 
pharmaceutical, is more powerful than what we can do for 
ourselves.
    And I will not deny the power of our pharmaceuticals, our 
surgery, our herbs and what have you. What I am trying to 
emphasize is what may be the underlying power in many of these 
therapies, and that is our belief system. And for many the most 
powerful belief system may well be belief in spirituality.
    Senator Harkin. Well, obviously from my comments earlier, I 
agree with you on that. It is just that I also feel that in 
many ways, whether it is herbal supplements, vitamins, for 
example, we know what effect vitamin E has on people and 
vitamin C, for example. I mean, this is not just clearly in 
one's mind. It has to do with the physiological reactions in 
your body that the vitamins help and minerals help.
    We know what nutrition, for example, does. We could get 
back into that again. This is not entirely in your mind. It has 
something to do with what the physiological reactions in your 
body are. So it is not just mind.
    Dr. Benson. I agree with that, Senator. But what we often 
deny is the mind component. I am not saying it is all mind. Of 
course the vitamin could well help. But let us also pay due 
attention to how belief may enhance the inherent properties of 
the vitamin. That is why I am arguing so for a three-legged 
stool.
    If we simply argue that herbs and vitamins and 
pharmaceuticals are one leg, surgery and procedures, 
acupuncture and massage are another, those are done to you. 
What I would like to emphasize is the due respect and research 
to support what we can do for ourselves. And in that component, 
belief is a vital part.
    Senator Specter. The Chair finds you two men in agreement.
    Senator Harkin. I think we are pretty much in agreement.
    Dr. Benson. I think we are, too.
    Senator Specter. Thank you very much, Dr. Benson, Ms. 
Magnacca and Mr. Cassidy. We really appreciate your coming 
here. And I think that your views, Dr. Benson, are very 
important for America's health. And I think they are catching 
on. And perhaps this hearing will give a little extra boost. 
Thank you.
STATEMENT OF DEAN ORNISH, M.D., FOUNDER AND PRESIDENT, 
            PREVENTIVE MEDICINE RESEARCH INSTITUTE
    Senator Specter. We now turn to our fourth panel, Dr. Dean 
Ornish and Mr. Walter Czapliewicz.
    Dr. Ornish is the founder, president and director of the 
Preventive Medicine Research Institute in Sausalito, 
California, clinical professor of medicine at the University of 
California, San Francisco, and founder of Osher Center for 
Integrative Medicine, written extensively about how 
comprehensive lifestyle changes can reverse coronary heart 
disease, medical degree from Baylor College and bachelor's 
degree from the University of Texas.
    Welcome, Dr. Ornish, and the floor is yours.
    Dr. Ornish. Thank you. Mr. Chairman, Senator Harkin, 
distinguished colleagues, thank you very much for the privilege 
of being here today. I just want to begin by acknowledging your 
leadership in bringing funding and in bringing science to this 
area, which I am deeply grateful for.
    I believe that the medicine of the 21st century should 
integrate the best of allopathic, mind/body medicine and 
complementary medicine. Our work is a model of the 
scientifically based approach that may be helpful in building 
bridges between these. In our research, my colleagues and I use 
the latest in high-tech, state-of-the-art medical technology to 
prove the power of these ancient and low-tech and low cost 
interventions.
    We have conducted a series of scientific studies 
demonstrating that the progression of even severe heart disease 
can often be reversed without drugs or surgery. Our program 
includes a very low fat, plant-based, whole foods diet, stress 
management techniques, modern exercise, smoking cessation and 
psycho-social support.
    The idea that heart disease might be reversible was a 
radical concept when I first began doing studies in this area 
23 years ago. But that idea has now become mainstream. And we 
have published our findings in leading peer reviewed medical 
and scientific medical journals.
    The improvement in quality of life for these patients is 
dramatic. We found a 91-percent reduction in the amount of 
chest pain. Most of them became pain-free within weeks. But 
they not only felt better, in most cases they were better in 
ways we could actually measure. They showed even more reversal 
of heart disease after 5 years than after 1 year. And we found 
that they had two-and-a-half times fewer heart attacks, 
bypasses, angioplasties and other things.
    I think these findings are giving many people new hope and 
new choices that they did not have before, as Mr. Czapliewicz 
will later discuss. In contrast, the patients in the control 
group, who were making the more conventional changes, like a 
30-percent fat diet, got worse and worse over time, rather than 
better and better.
    I think these findings have particular significance for 
women, because heart disease is by far the leading cause of 
death in women. Women have less access to angioplasty and 
bypass surgery than men do. When they do get operated on, they 
have higher morbidity and mortality than men. But the good news 
is that women seem to be able to reverse heart disease even 
easier than men simply through making diet and lifestyle 
changes.
    We found that our program is not only medically effective, 
but also cost effective in the diverse selection of hospitals 
and other sites around the country, including ones in Iowa and 
Pennsylvania. Seventy-seven percent of people who were eligible 
for bypass surgery or angioplasty were able to safely avoid it 
simply by changing diet and lifestyle with an immediate savings 
of almost $30,000 per patient.
    We also found that the older patients improved as much as 
the younger ones, which is not what I thought we would find. 
And we found that since the risk of surgery increases with age, 
but the benefits of lifestyle changes occur at any age, you can 
argue that this a particular benefit in those in the Medicare 
population.
    Over 40 insurance companies are covering our program in the 
sites that we have trained. And also, a high mark, Blue Cross/
Blue Shield of Pennsylvania was the first insurer to both 
provide and cover the program to its members.
    We also found that several people who had such severe heart 
disease that they were waiting for a heart transplant were able 
to get off the heart transplant list because they improved so 
much, which saves an average of almost $300,000 a patient, not 
to mention the suffering that comes from having to go through 
that.
    Also, Congress, including Senator Stevens and other members 
of this committee, appropriated funds via the Department of 
Defense for us to train at the Walter Reed Army Medical Center 
and the Bethesda National Naval Medical Center in our program. 
So finally we can now order people to meditate and eat healthy.
    We appreciate that HCFA finally agreed to move forward with 
the demonstration project of our work, to determine the 
effectiveness of our program in the medical population, thereby 
making it available to Americans who most need it, regardless 
of their ability to pay. And I want to again acknowledge 
Senators Specter and Harkin for their support of that.
    We believe that this can provide a new model for lowering 
Medicare costs without compromising the quality of care or 
access to care by addressing the underlying causes of why 
people get sick, rather than just literally or figuratively 
bypassing them.
    A few years ago, we began conducting the first randomized 
trial to see if prostate cancer could be reversed by a similar 
program. And our preliminary data are very encouraging. We are 
finding that PSA levels are going down in the experimental 
group, and they are going up in the control group in direct 
relation to their adherence.
    I believe in the power of science to help sort out 
conflicting claims, to distinguish what works from what does 
not and for whom and under what circumstances. And as you both 
indicated, the question is not should Americans be using 
alternative medicine, they already are, but with adequate 
information scientifically to make informed and intelligent 
choices.
    I applaud Congress, and particularly the two of you, for 
its role in establishing the NIH Center for Complementary and 
Alternative Medicine and the NIH Office of Behavioral and 
Social Sciences Research. But, Senator Harkin, as you pointed 
out, the budgets are still only a half percent of the overall 
NIH budget.
    And therefore, I respectfully request Congress to consider 
substantial increases in funding for rigorous scientific 
research into the efficacy of various approaches in 
complementary and alternative medicine and mind/body medicine, 
such as those described by Dr. Weil, Dr. Benson and others.

                           PREPARED STATEMENT

    Whatever is learned will be of great interest. So please 
encourage HCFA to cover alternative medicine and mind/body 
programs, if they have demonstrated safety and medical efficacy 
in randomized control trials published in peer review journals. 
Anecdotal evidence is important, but it is not sufficient.
    Thank you.
    [The statement follows:]
                   Prepared Statement of Dean Ornish

                      INTRODUCTION AND BACKGROUND
    Mr. Chairman, members of the Committee, distinguished colleagues, 
thank you very much for the privilege of being here today. My name is 
Dean Ornish, M.D. I am the founder and president of the non-profit 
Preventive Medicine Research Institute and Clinical Professor of 
Medicine at the School of Medicine, University of California, San 
Francisco (UCSF), where I am also one of the founders of the new Osher 
Center for Integrative Medicine at UCSF. Also, I was recently appointed 
to the Presidential White House Commission on Complementary and 
Alternative Medicine Policy.
    For the past 23 years, my colleagues and I at the non-profit 
Preventive Medicine Research Institute have conducted a series of 
scientific studies and randomized clinical trials demonstrating, for 
the first time, that the progression of even severe coronary heart 
disease often can be reversed by making comprehensive changes in diet 
and lifestyle, without coronary bypass surgery, angioplasty, or a 
lifetime of cholesterol-lowering drugs. These lifestyle changes include 
a very low-fat, plant-based, whole foods diet, stress management 
techniques, moderate exercise, smoking cessation, and psychosocial 
support. We published our findings in the leading peer-reviewed medical 
and scientific journals.
    Our work is a model of a scientifically-based approach that may be 
helpful to others in building bridges between the alternative and 
conventional medical communities. The idea that heart disease might be 
reversible was a radical concept when we began our first study; now, it 
has become mainstream and is generally accepted as true by most 
cardiologists and scientists.
    I am a scientist as well as a clinician because I believe in the 
power of science to help sort out conflicting claims and to distinguish 
fact from fancy, what sounds plausible from what is real, what works 
and what doesn't, for whom, and under what circumstances. Indeed, that 
is the whole point of science: as Tom Cruise playing Jerry Maguire 
might say if he were a scientist, ``Show me the data!'' The peer-
reviewed scientific process is about people challenging each other to 
demonstrate scientific evidence, not just their opinions or beliefs, to 
support their position. Not everything that counts can be counted, and 
not everything meaningful is measurable, but much is.
    Nowhere are there more conflicting claims than in the area of 
complementary or alternative medicine. The question is not, ``Should 
Americans seek out alternative medicine practitioners,'' because they 
already are. Although there is relatively little hard scientific 
evidence proving the value of most alternative medicine approaches, 
several studies have revealed that as much money is spent out of pocket 
for complementary or alternative medicine than for traditional 
physician services. In most cases, these decisions are being made with 
inadequate scientific information to make informed and intelligent 
choices.
    Therefore, I respectfully request the Committee on Appropriations 
of the U.S. Senate to consider substantial increases in funding for 
rigorous scientific research into the efficacy of various approaches in 
complementary and mind/body medicine such as those offered by Dr. 
Benson, Dr. Weil, and others. Whatever is learned will be of great 
interest. Those approaches that are found to be safe and effective 
should be covered by Medicare and other third-party payers so that 
these methods can be more widely available to other Americans who may 
benefit from them. Scientific studies that find other approaches to be 
ineffective or unsafe will be of great value in helping to protect the 
American people as well as Medicare from fraud and abuse. Anecdotal 
evidence is not sufficient.
    I applaud Congress for establishing the Office of Alternative 
Medicine and elevating its status and funding to the NIH National 
Center for Complementary and Alternative Medicine. However, their 
budget is still only a small fraction of the overall NIH budget. 
Although at least 50 percent of the determinants of our health are our 
behaviors such as diet and lifestyle, only 1.4 percent of the national 
health expenditures and only 7 percent of the NIH budget is devoted to 
these areas.
    The editors of The New England Journal of Medicine (1998;339(12), 
p. 839-841) stated, ``There cannot be two kinds of medicine--
conventional and alternative. There is only medicine that has been 
adequately tested and medicine that has not, medicine that works and 
medicine that may or may not work. Once a treatment has been tested 
rigorously, it no longer matters whether it was considered alternative 
at the outset. If it is found to be reasonably safe and effective, it 
will be accepted.'' But this presumes that funding is available to for 
rigorous testing.
    Although research in alternative and mind/body medicine is so 
important, it is very difficult to obtain funding to do these studies. 
In my experience, it is often a catch-22: there is a presumption at the 
NIH and among many funding agencies that these approaches have little 
value, so they are reluctant to fund studies to determine their 
effectiveness, yet one cannot assess their effectiveness without 
funding to do the research. Thus, it is important to increase funding 
and support for the National Center for Complementary and Alternative 
Medicine and to encourage the rest of the NIH to conduct rigorous 
research in these areas. The presumption that unstudied approaches have 
no value is itself unscientific until these approaches are 
scientifically studied and tested.
    The medicine of the 21st century should integrate the best of 
traditional allopathic medicine and complementary or alternative 
medicine. Our research has demonstrated that this integrated approach 
is both medically effective and cost effective.
    We tend to think of advances in medicine as a new drug, a new 
surgical technique, a laser, something high-tech and expensive. We 
often have a hard time believing that the simple choices that we make 
each day in our lives--what we eat, how we respond to stress, whether 
or not we smoke, how much we exercise, and the quality of our social 
relationships--can make such a powerful difference in our health and 
well-being, even in our survival, but they often do.
    When we treat these underlying causes of diet and lifestyle, we 
find that the body often has a remarkable capacity to begin healing 
itself, and much more quickly than had once been thought possible. On 
the other hand, if we just literally bypass the problem with surgery or 
figuratively with drugs without also addressing these underlying 
causes, then the same problem may recur, new problems may emerge, or we 
may be faced with painful choices--like mopping up the floor around an 
overflowing sink without also turning off the faucet.
    For example, one-third to one-half of angioplastied arteries 
restenose (clog up) again after only four to six months, and up to one-
half of bypass grafts reocclude within only a few years. When this 
occurs, then coronary bypass surgery or coronary angioplasty is often 
repeated, thereby incurring additional costs. Yet over $20 billion were 
spent in the United States last year just on these two operations, many 
of which could be avoided by making comprehensive changes in diet and 
lifestyle.
    In our research, we use the latest high-tech, expensive, state-of-
the-art medical technologies such as computer-analyzed quantitative 
coronary arteriography and cardiac PET scans to prove the power of 
ancient, low-tech, and inexpensive alternative and mind/body 
interventions. Below is a summary of some of our scientific studies:

              CAN LIFESTYLE CHANGES REVERSE HEART DISEASE?
    We began conducting research in 1977 to determine if coronary heart 
disease is reversible by making intensive changes in diet and 
lifestyle. Within a few weeks after making comprehensive lifestyle 
changes, the patients in our research reported a 91 percent average 
reduction in the frequency of angina. Most of the patients became 
essentially pain-free, including those who had been unable to work or 
engage in daily activities due to severe chest pain. Within a month, we 
measured increased blood flow to the heart and improvements in the 
heart's ability to pump. And within a year, even severely blocked 
coronary arteries began to improve in 82 percent of the patients. The 
improvement in quality of life was dramatic for most of these patients.
    These research findings were published in the most well-respected 
peer-reviewed medical journals, including the Journal of the American 
Medical Association, The Lancet, Circulation, The American Journal of 
Cardiology, and others. This research was funded in part by the 
National Heart, Lung, and Blood Institute of the National Institutes of 
Health.
    We found that most of the study participants were able to maintain 
comprehensive lifestyle changes for at least five years. On average, 
they demonstrated even more reversal of heart disease after five years 
than after one year. In contrast, the patients in the comparison group 
who made only the moderate lifestyle changes recommended by many 
physicians and agencies (i.e., a 30 percent fat diet) worsened after 
one year and their coronary arteries became even more clogged after 
five years.
    Thus, instead of getting worse and worse, these patients who made 
comprehensive lifestyle changes on average got better and better. Also, 
we found that the incidence of cardiac events (e.g., heart attacks, 
strokes, bypass surgery, and angioplasty ) was 2.5 times lower in the 
group that made comprehensive lifestyle changes after five years. A 
one-hour documentary of this work was broadcast on NOVA, the PBS 
science series, and was featured on Bill Moyers' PBS series, Healing & 
The Mind.
    These research findings have particular significance for Americans 
in the Medicare population. One of the most meaningful findings in our 
research was that the older patients improved as much as the younger 
ones. When we began the research, we believed that the younger patients 
with milder disease would be more likely to show regression, but we 
were wrong. Instead, the primary determinant of change in their 
coronary artery disease was neither age nor disease severity but 
adherence to the recommended changes in diet and lifestyle. No matter 
how old they were, on average, the more people changed their diet and 
lifestyle, the more they improved. Indeed, the oldest patient in our 
study (now 86) showed more reversal than anyone. This is a very hopeful 
message for Medicare patients, since the risks of bypass surgery and 
angioplasty increase with age, but the benefits of comprehensive 
lifestyle changes may occur at any age.
    These findings also have particular significance for women. Heart 
disease is, by far, the leading cause of death in women in the Medicare 
population. Women have less access to bypass surgery and angioplasty. 
When women undergo these operations, they have higher morbidity and 
mortality rates than men. However, women seem to be able to reverse 
heart disease more easily than men when they make comprehensive 
lifestyle changes.

              MULTICENTER LIFESTYLE DEMONSTRATION PROJECT
    The next research question was: how practical and cost-effective is 
this lifestyle program?
    There is bipartisan interest in finding ways to control health care 
costs without compromising the quality of care. Many people are 
concerned that the managed care approaches of shortening hospital 
stays, shifting from inpatient to outpatient surgery, forcing doctors 
to see more and more patients in less and less time, etc., may 
compromise the quality of care because they do not address the 
lifestyle factors that often lead to illnesses like coronary heart 
disease.
    Beginning five years ago, my colleagues and I established the 
Multicenter Lifestyle Demonstration Project. It was designed to 
determine (a) if we could train other teams of health professionals in 
diverse regions of the country to motivate their patients to follow 
this lifestyle program; (b) if this program may be an equivalently safe 
and effective alternative to bypass surgery and angioplasty in selected 
patients with severe but stable coronary artery disease; and (c) the 
resulting cost savings. In other words, can some patients avoid bypass 
surgery and angioplasty by making comprehensive lifestyle changes at 
lower cost without increasing cardiac morbidity and mortality?
    In the past, lifestyle changes have been viewed only as prevention, 
increasing costs in the short run for a possible savings years later. 
Now, this program is offered as a scientifically-proven alternative 
treatment to many patients who otherwise were eligible for coronary 
artery bypass surgery or angioplasty, thereby resulting in an immediate 
and substantial cost savings.
    For every patient who chooses this lifestyle program rather than 
undergoing bypass surgery or angioplasty , thousands of dollars are 
immediately saved that otherwise would have been spent; much more when 
complications occur. (Of course, this does not include sparing the 
patient the trauma of undergoing cardiac surgery.) Also, providing 
lifestyle changes as a direct alternative for patients who otherwise 
would receive coronary bypass surgery or coronary angioplasty may 
result in significant long-term cost savings.
    Through our non-profit research institute (PMRI), we trained a 
diverse selection of hospitals around the country. Also, Highmark Blue 
Cross Blue Shield of Western Pennsylvania was the first insurer to both 
cover and to provide this program to its members, now at three 
different sites, including Windber Hospital in Johnstown, PA. Mutual of 
Omaha was the first insurance company to cover this program in 1993. 
Over 40 other insurance companies are covering this approach as a 
defined program either for all qualified members or on a case by case 
basis at the sites we have trained.
    In brief, we found that 77 percent of people who were eligible for 
bypass surgery or angioplasty were able to avoid it safely by making 
comprehensive diet and lifestyle changes in the hospitals we trained. 
Mutual of Omaha calculated an immediate savings of almost $30,000 per 
patient. Patients reported reductions in angina comparable to what can 
be achieved with bypass surgery or angioplasty without the costs or 
risks of surgery. These findings were published in the American Journal 
of Cardiology in November 1998. We also found that patients who needed 
bypass surgery or angioplasty were able to reduce the likelihood of 
needing another operation by making comprehensive lifestyle changes 
after surgery. Since then, of the 300 heart patients at Highmark Blue 
Cross Blue Shield who are in the program, none has suffered a heart 
attack, stroke, or required bypass surgery, only one patient underwent 
angioplasty, and none has died.
    Several patients with such severe heart disease that they were 
waiting on the heart transplant list for a donor heart (due to ischemic 
cardiomyopathies) improved sufficiently that they were able to get off 
the heart transplant list. This improvement was not only clinically but 
also objectively verified by cardiac PET scans and/or echocardiograms. 
Avoiding a heart transplant saves more than $300,000 per patient as 
well as significant physical and emotional trauma.
    In summary, we found that we were able to train other health 
professionals to motivate their patients to make and maintain 
comprehensive lifestyle changes to a larger degree than have ever been 
reported in a real-world environment. These lifestyle changes resulted 
in cost savings that were immediate and dramatic in most of these 
patients. These findings are giving many people new hope and new 
choices.

                                MEDICARE
    Over 500,000 Americans die annually from coronary artery disease, 
making it the leading cause of death in this country. Approximately 
500,000 coronary artery bypass operations and approximately 600,000 
coronary angioplasties were performed in the United States in 1998 at a 
combined cost of over $20 billion, more than for any other surgical 
procedure. Much of this expense is paid for by Medicare. Not everyone 
is interested in changing lifestyle, and some people with extremely 
severe and unstable disease may benefit from surgery, but billions of 
dollars per year could be saved immediately if only some of the people 
who were eligible for bypass surgery or angioplasty were able to avoid 
it by making comprehensive lifestyle changes instead.
    Unfortunately, for many Americans on Medicare, the denial of 
coverage is the denial of access. Because of the success of our 
research and demonstration projects, we asked the Health Care Financing 
Administration (HCFA) to provide coverage for this program. We believe 
that this can help provide a new model for lowering Medicare costs 
without compromising the quality of care or access to care. In short, a 
model that is caring and compassionate as well as cost-effective and 
competent.
    This approach empowers the individual, may immediately and 
substantially reduce health care costs while improving the quality of 
care, and offers the information and tools that allow individuals to be 
responsible for their own health care choices and decisions. It 
provides access to quality, compassionate, and affordable health care 
to those who most need it.
    Because of the success of our Multicenter Lifestyle Demonstration 
Project, HCFA conducted their own internal peer review of our program. 
Recently, HCFA agreed to move forward with a demonstration project to 
determine the medical effectiveness of our program in the Medicare 
population. If they validate the cost savings that we have already 
shown in the Multicenter Lifestyle Demonstration Project, then they may 
decide to cover this program as a defined benefit for all Medicare 
beneficiaries. If this happens, then most other insurance companies may 
do the same, thereby making the program available to the people who 
most need it.
    Medicare coverage also affects medical training and education. If 
we demonstrate the cost-effectiveness of our program in the Medicare 
population, we will provide a new model for lowering Medicare costs 
without compromising the quality of care or access to care. This 
demonstration project is about to begin in the sites we have trained.
    Also, Congress appropriated funds via the Department of Defense for 
us to train the Walter Reed Army Medical Center and the Bethesda 
National Naval Medical Center in our program for reversing heart 
disease. The program at Walter Reed is scheduled to begin operation 
next month.

    CAN PROSTATE CANCER BE SLOWED, STOPPED, OR REVERSED BY CHANGING 
                               LIFESTYLE?
    Three years ago, we began conducting the first randomized 
controlled trial to determine if prostate cancer may be affected by 
making comprehensive changes in diet and lifestyle, without surgery, 
radiation, or drug (hormonal) treatments.
    The scientific evidence from animal studies, epidemiological 
studies, and anecdotal case reports in humans is very similar to the 
way it was with respect to coronary heart disease when my colleagues 
and I began conducting research in this area over twenty years ago. For 
example, the incidence of clinically significant prostate cancer (as 
well as heart disease, breast cancer, and colon cancer) is much lower 
in parts of the world that eat a predominantly low-fat, whole foods, 
plant-based diet. Subgroups of people in the U.S. who eat this diet 
also have much lower rates of prostate cancer and breast cancer than 
those eating a typical American diet.
    This study is being conducted in collaboration with Peter Carroll, 
M.D. (Chairman, Department of Urology, UCSF School of Medicine) and 
William Fair, M.D. (Professor and recent Chairman of Urology, Memorial 
Sloan-Kettering Cancer Center in New York). Patients with biopsy-proven 
prostate cancer who have elected to undergo ``watchful waiting'' (i.e., 
no treatment) are randomly assigned to an experimental group that is 
asked to make comprehensive diet and lifestyle changes or to a control 
group that is not. Both groups are studied and compared.
    Because of these epidemiological, animal, and anecdotal human data, 
I am encouraged by the possibility of being able to determine if the 
progression of prostate cancer may be modified in humans. If we are 
successful in demonstrating that we may affect the progression of 
prostate cancer, the implications for helping to prevent prostate 
cancer may be of equal importance. Also, these findings may extend to 
some other forms of cancer, including breast cancer and colon cancer, 
both of which have been linked to diets high in fat and animal protein. 
We have the opportunity to determine the effects of diet and 
comprehensive lifestyle changes on prostate cancer without confounding 
variables, a study that would not be ethically possible in breast 
cancer, colon cancer, or related illnesses. Whatever we show, the data 
will be of wide interest.
    In our study, patients are tested with PSA levels and free PSA 
levels twice at baseline and again every three months thereafter for 
one year. Additional tests include MRI and MR spectroscopy scans of the 
prostate to determine tumor size and activity. These are performed at 
baseline and after one year.
    While it would be premature and unwise to draw any definitive 
conclusions from a study that is still in progress, our preliminary 
data are encouraging. Dr. Carroll and I presented our interim findings 
at scientific meeting organized by the National Cancer Institute in 
Baltimore in August and at the CapCURE annual scientific session in 
October 1999. We found that PSA levels are decreasing in the 
experimental group and increasing in the control group. Also, the 
degree of adherence to the lifestyle program was directly correlated 
with changes in PSA.
    In summary, our experience provides a model for taking alternative 
medicine mind/body interventions into the mainstream. First, conduct 
rigorous scientific studies published in peer-reviewed medical and 
scientific journals to evaluate medical effectiveness and to understand 
mechanisms of healing. Then, conduct studies to demonstrate cost 
effectiveness. Finally, obtain coverage from third party payers and 
Medicare to make this program available to those who may benefit from 
it.
    I would be grateful if Congress would increase the support of 
research in alternative medicine and mind/body interventions and 
encourage the Health Care Financing Administration to cover alternative 
medicine and mind/body programs that have demonstrated medically 
effectiveness in randomized controlled trials published in peer-
reviewed medical journals. In particular, please consider increasing 
the budgets of the NIH National Center for Complementary and 
Alternative Medicine, the NIH Office of Behavioral and Social Sciences 
Research, and related governmental agencies.
    Thank you very much for the opportunity to share these thoughts 
with you today.

    Senator Specter. Thank you very much, Dr. Ornish.
STATEMENT OF WALTER CZAPLIEWICZ
    Senator Specter. We will now turn to Mr. Walter 
Czapliewicz, assistant general manager for Bidwell Food 
Services in Pittsburgh, here today to discuss his participation 
in ``The Dean Ornish Program for Reversing Heart Disease.''
    Regrettably, I am going to have to excuse myself at this 
point. I am due on the Senate floor. We are debating an 
amendment which I am an original co-sponsor. I want to thank 
you for coming, gentlemen. And I think we are moving forward on 
this very important subject. And this today's hearing, I think, 
is a big help.
    My distinguished colleague, Senator Harkin, has agreed to 
chair for the remaining time, which is relatively brief.
    Thank you.
    Mr. Czapliewicz. Thank you, Senator.
    Good morning. My name is Walt Czapliewicz, and I am 44 
years old and a resident of Pittsburgh, PA. About 11 weeks ago, 
I became a participant in the Dr. Dean Ornish Program for 
Reversing Heart Disease offered by Highmark Blue Cross/Blue 
Shield.
    I came to the program with a medical history of 
hypertension and coronary heart disease. In fact, before I 
joined the Ornish Program, I had three heart attacks. The first 
one was on Christmas Day in 1996. I had two more heart attacks 
in the following year. And I had bypass surgery in October of 
1997.
    I seemed to be doing well for about 2 years. Then in the 
fall of 1999 I started experiencing chest pain again. The 
bypass was clogging up again. The pain became more and more 
frequent. So I was taking nitroglycerine pills several times a 
week. I would get pain after walking, after meals or during 
times of stress. I could tell by how I felt that I knew I was 
going to have a fourth heart attack and need more bypass 
surgery soon.
    As the new year approached, I saw a story in the newspaper 
about Dr. Ornish's program. I asked my cardiologist for his 
thoughts, and he recommended it. I started the program 10 weeks 
ago. Right from the start, I followed it 100 percent. Within 
the first 10 days, my chest pain diminished greatly. And it was 
completely gone after 6 weeks. In fact, I have not had any 
chest pain since then.
    I have lost 34 pounds in the past 10 weeks, even though I 
am eating more food and more frequently than before, so I do 
not feel deprived or hungry. Because the food is low in fat, it 
is also low in calories. When I started the program, my stress 
test was abnormal.
    After only 6 weeks, it came back negative. And after just 9 
weeks in the program, my resting blood pressure went from 160 
over 80 to 128 over 72. My cholesterol is also much lower, 
overall from 193 to 114. And my triglycerides have decreased 
from 316 to 103.
    All four of the program's components, diet, exercise, 
stress management and group support, have been a true blessing 
to me. The results I have experienced in the first weeks alone 
made me even more committed to the program. I am fortunate to 
live in an area where my health insurance company, Highmark 
Blue Cross/Blue Shield, had the vision to make this program a 
reality.
    In 1997 Highmark became the first health insurer in the 
country to both provide and pay for the Ornish Program for 
their customers. My experience with the program and the 
Highmark staff has been nothing but positive. Many of the 
participants are over age 65. In fact, I was the youngest in my 
group.
    But as we all know, heart disease can strike any of us, 
young and old alike. The older participants in the program are 
doing as well as the younger ones.
    We share group meals, exercise sessions and, perhaps most 
importantly, our life experiences, all of which created a 
close-knit group working toward a common goal, good health. I 
manage stress so much better than before.
    The nutrition portion of the program also has contributed 
to my improved health status and more positive attitude. The 
diet consists primarily of fruits, vegetables, grains, beans, 
non-fat dairy egg whites, and no added oils, which make the 
diet about 10 percent fat. I also was advised to take some 
vitamins and fish oil supplements.
    I manage a catering company, so this was a big change in my 
diet at first. But now I like it. The recipes in the program 
from appetizers to desserts are delicious, nutritious and easy 
to prepare. And I feel so much better. It is worth it.
    The program's supervision is also very comforting. We are 
guided through the program sessions by some very skilled 
professionals, including a medical director, registered 
dieticians, exercise physiologists, stress management 
instructors, behavior health clinicians, and nurse case 
managers. All participants remain under the care and control of 
their own physicians, who receive regular progress reports and 
copies of all tests.
    In closing, I would like to reiterate my dramatic 
improvements in the Dr. Dean Ornish Program. This program 
reflects a commitment to offering innovative solutions that 
truly improve one's health. The program treats the underlying 
causes of heart disease, not just the symptoms, and may spare 
patients from surgery and, most importantly, improve their 
quality of life.

                           PREPARED STATEMENT

    I think that just about everyone would benefit from a 
program like this, whether or not they had heart disease. And I 
hope the Government can find ways to make programs like this 
more widely available. Thanks to this program, I feel like I am 
35 again. I feel better, look better, and I am healthier than I 
have been in years.
    Coming into the program, I knew I was going to have another 
heart attack and need bypass surgery soon. But now I do not. 
And now I do not have to endure the pain and fear. And I truly 
believe this program saved my life.
    Thank you.
    [The statement follows:]
               Prepared Stastement of Walter Czapliewicz
    Good morning. My name is Walter Czapliewicz. I'm 44 years old and a 
resident of Pittsburgh, Pennsylvania. About 11 weeks ago, I became a 
participant in the Dr. Dean Ornish Program For Reversing Heart Disease 
offered by Highmark Blue Cross Blue Shield.
    I came to the program with a medical history of hypertension and 
coronary heart disease. In fact, before I joined the Ornish program, I 
had three heart attacks. The first one was on Christmas day in 1996. I 
had two more heart attacks in the following year. I had bypass surgery 
in October of 1997.
    I seemed to be doing well for about two years. Then, in the Fall of 
1999, I started experiencing chest pain again. The bypasses were 
clogging up again. The pain became more and more frequent, so I was 
taking nitroglycerine pills several times a week. I would get pain 
after walking, after meals, or during times of stress.
    I could tell by how I felt that I knew I was going to have a fourth 
heart attack and need more bypass surgery soon.
    As the New Year approached, I saw a story in the newspaper about 
Dr. Ornish's Program. I asked my cardiologist, Dr. Bryan Donahoe, for 
his thoughts, and he recommended it. I started the program 10 weeks 
ago; right from the start, I followed it 100 percent.
    Within the first ten days, my chest pain diminished greatly, and it 
was completely gone after six weeks! In fact, I haven't had any chest 
pain since then. I've lost 34 pounds in the past 10 weeks even though 
I'm eating more food and more frequently than before, so I don't feel 
deprived or hungry. Because the food is low in fat, it's also low in 
calories.
    When I started the program, my stress test was abnormal; after only 
six weeks, it came back negative. And, after just nine weeks of the 
program, my resting blood pressure went from 160/80 to 128/72. My 
cholesterol is also much lower.
    All four of the program's components diet, exercise, stress 
management, and group support have been a true blessing to me. The 
results I've experienced in the first weeks alone made me even more 
committed to the program.
    I am fortunate to live in an area where my health insurance 
company, Highmark Blue Cross Blue Shield, had the vision to make this 
program a reality. In 1997, Highmark became the first health insurer in 
the country to both provide and pay for the Ornish program for their 
customers.
    My experience with the program and the Highmark staff has been 
nothing but positive. Many of the participants are over age 65. In 
fact, I was the youngest in my group. But, as we all know, heart 
disease can strike any of us, young and old alike. The older 
participants in the program are doing as well as the younger ones.
    We share group meals, exercise sessions, and, perhaps most 
importantly, our life experiences all of which created a close-knit 
group working toward a common goal: good health. I manage stress so 
much better than before.
    The nutrition portion of the program also has contributed to my 
improved health status and more positive attitude. The diet consists 
primarily of fruits, vegetables, grains, beans, non-fat dairy egg 
whites and no added oils, which makes the diet about 10 percent fat. I 
also was advised to take some vitamins and fish oil supplements.
    I manage a catering company, so this was a big change in my diet at 
first, but now I like it. The recipes in the program from appetizers to 
desserts are delicious, nutritious, and easy to prepare. And I feel so 
much better, it's worth it.
    The program supervision is also very comforting. We are guided 
through the program sessions by some very skilled professionals 
including a medical director, registered dietitians, exercise 
physiologists, stress management instructors, behavioral health 
clinicians, and nurse case managers.
    All participants remain under the care and control of their own 
physicians, who receive regular progress reports and copies of all 
tests.
    In closing, I'd like to reiterate my dramatic improvements in the 
Dr. Dean Ornish Program. This program reflects a commitment to offering 
innovative solutions that truly improve one's health. The program 
treats the underlying causes of heart disease not just the symptoms and 
may spare patients from surgery and, most importantly, improve their 
quality of life.
    I think that just about everyone would benefit from a program like 
this, whether or not they had heart disease. I hope the government can 
find ways to make programs like this more widely available.
    Thanks to this program, I feel like I'm 35 again. I feel better, 
look better, and am healthier than I have been in years. Coming into 
the program, I knew I was going to have a heart attack and need more 
bypass surgery soon, but now I don't. Now, I don't have to endure the 
pain and fear. I truly believe this program saved my life.

    Senator Harkin [presiding]. Thank you very much. Pronounce 
your last name, so I do not mispronounce it.
    Mr. Czapliewicz. Czapliewicz.
    Senator Harkin. Thank you very much for that testimony, Mr. 
Czapliewicz.
    And thank you, Dr. Ornish, for being here and for all the 
great work that you do. I have a couple three questions. First 
of all, I remember I visited--I was in New York, I think, at 
the Einstein Medical Center back in 1993, just----
    Dr. Ornish. Beth Israel, I think.
    Senator Harkin. Maybe it was Beth Israel. I forget exactly 
where I was, but Beth Israel. It was about 1993, just about the 
time when a couple insurance companies were starting to provide 
coverage. So I visited some of your patients in New York at 
that time and was just astounded at the progress that they had 
made. And every single one of them was like Mr. Czapliewicz. 
They were just overjoyed at what had happened to them.
    Well, that was in 1993. This is 7 years later. Now you say 
some other insurance companies are now starting to cover this, 
right? You have how many--there is more than just a couple.
    Dr. Ornish. There are about 40 altogether. And recently, 
Medicare agreed to move forward on its demonstration project. 
But it is a slow process.
    Senator Harkin. Now Medicare is not doing anything in this, 
though, right?
    Dr. Ornish. Well, you know, we tend to think of advanced in 
medicine as a new drug or a new surgical technique or new laser 
or something really high tech and expensive. And insurance 
companies often have a hard time believing that the simple 
choices that we make in our lives every day, you know, like 
what we eat and how we respond to stress and so on, can make 
such a powerful difference.
    But as you say, Mr. Czapliewicz, the stories that you have 
heard, I mean, I see this over and over and over again. It is 
frustrating to me that there is not more coverage for something 
that is not only the right thing to do, but can save them so 
much money.
    Senator Harkin. Absolutely. And make them feel better. I 
guess I just want to make a point here for the record again, 
that--and for the people of the press who are here. If someone 
who is on Medicare goes in for bypass surgery, Medicare pays 
for it.
    Dr. Ornish. That is right.
    Senator Harkin. If someone with the same situation wants to 
go into your program, will Medicare pay for it?
    Dr. Ornish. No, sir. Well, actually they will now, because 
they just agreed to do a demonstration.
    Senator Harkin. Well, that is only in a demonstration mode.
    Dr. Ornish. But not as a defined benefit. No, sir. And it 
is unfortunate, because we have already shown that it can save 
an average of $30,000. These are--you know, traditionally 
insurance companies have been reluctant to pay for alternative 
medicine or mind/body interventions, in part because they say 
these are prevention.
    It may take 5 years to see the benefit. By then, they have 
changed companies. So why should we spend our money for some 
future benefit that, chances are, someone else is going to get.
    And we said this is not just prevention, it is an 
alternative treatment. And for every man or woman who would 
have undergone bypass surgery who can avoid it, you save 
$30,000 immediately. You know, real dollars today, not just 
theoretical dollars years later. Their skepticism was, well, 
you know, people cannot change, it is too hard, so we will end 
up paying for the bypass anyway.
    Well, we have shown in a demonstration project, and we have 
now trained over 20 sites, that almost 80 percent of the people 
were able to avoid the surgery. It has taken us 6 years going 
back and forth with the Health Care Financing Administration 
just to get to the point where we are finally ready to begin a 
demonstration project. Even so though this is something that is 
in the best interest of everyone, the American people, HCFA can 
do something innovative.
    And, you know, as you know, traditional approaches to 
saving money are really frustrating Americans, shortening 
hospital stays, shifting to outpatient surgery, forcing doctors 
to see more and more patients in less and less time. None of 
those really address the more fundamental causes of why people 
get sick. And that is one of the reasons why people are going 
to alternative practitioners, because they spend time with 
people, and they listen to them, and they do not rush them out.
    So what we are trying to do is to create a new model that 
is more caring and more compassionate, whereby treating the 
underlying causes instead of just bypassing them, you know, 
literally or figuratively, it saves money, as well as being the 
right thing to do.
    And as Dr. Benson says, it empowers people with 
information, rather than just doing things to them, which, you 
know, half or the angioplasties clog up within just 4 to 6 
months, and up to half of the bypasses within just a few years. 
And we spent $20 billion last year just on those two 
operations.
    These kind of approaches go way beyond heart diseases. We 
focused on that as a model for how powerful these changes can 
be. And nothing would please me more than if Congress could, 
you know pass legislation so that the Health Care Financing 
Administration can make this available. Because if they cover 
it, everyone will cover it.
    And in the final analysis, we doctors do what we get paid 
to do. And we get trained to do what we get paid to do. So no 
single effect that Congress could do would make a bigger 
difference in medical practice and medical education than 
passing legislation encouraging the Health Care Financing 
Administration to cover these kinds of interventions.
    Senator Harkin. We have been on them for some time, because 
it is evidence based now. Honestly, I wish I knew why they were 
dragging their feet so much. I guess it is just part of a 
larger question. We have the evidence of the efficacy of your 
approach.
    Dr. Ornish. Yes.
    Senator Harkin. Why is it taking so long for it to be 
accepted in normal practice? Why are we not integrating these 
into current practices?
    Dr. Ornish. Well, Senator, I have asked myself that 
question a long time, because I have been doing this work for 
23 years. And I used to think that if we just did good science 
and the science was well accepted, that would change medical 
practice.
    But I was naive. It is not enough to have good science. I 
am the scientist. I believe in the power of science. I am 
continuing to do science. I think science can really help 
people sort out what is truth from what is not.
    But it is more than science that is required. It is 
reimbursement. And as I say, if we change reimbursement, we 
change medical practice, and we change medical education. It is 
very difficult for entrench bureaucracies to do things that are 
innovative, because there is always a risk associated with it.
    But I think that, here again, if Congress legislated HCFA 
with the authority and the requirement to begin doing not only 
demonstrations like what we are doing, but covering those 
programs that have the science, nothing will make a faster and 
more powerful difference in the American people. And it would 
save billions of dollars a year.
    Senator Harkin. I think one of the problems we have is 
that, like Mr. Czapliewicz, when you entered the program, you 
had supervision, you had a support group, you had all of that 
around you. I think for a lot of people out there they just do 
not have that.
    People say, yes, I would like to change my lifestyle, I 
would like to change it. But they have to have support. They 
have had a whole lifetime of eating fat foods and terrible 
diets and not exercising. And somehow they need the kind of 
integration into a group that you had. But people do not have 
that. So the only thing they have left is to go in and have 
bypass surgery.
    Dr. Ornish. Well, that is why we are trying to create new 
models in medicine that are more caring and compassionate that 
are also more cost effective and competent. And, you know, if I 
went into an insurance company or Medicare and said, we want to 
create places for people to learn to create community and open 
their hearts to each other, they would show me the door.
    But if we can show them PET scans and the angiograms and 
the specthalium and the rate--the--showing these people are 
getting better, and for every dollar they spend they are saving 
several more--it also allows us to address not only things like 
diet and exercise, which are so important, but the kind of 
things that Dr. Benson writes so eloquently about, the psycho-
social, the emotional and the spiritual dimensions as well.
    Senator Harkin. Just a couple other things. We have to 
close up here. Your study on prostate cancer, is the--I was 
trying to read through your statement there. But is this based 
on more use of soy-based products?
    Dr. Ornish. It is a soy-based project, too.
    Senator Harkin. And isoflavins and things like that?
    Dr. Ornish. Yes, sir. It includes that. But it is also a 
program very similar to what we found can reverse heart 
disease. And it is being funded in part by the Department of 
Defense through its appropriation and also through foundations 
like Captor and others.
    It is a multi-factorial interventions, because I think we 
are at a place with respect to prostate cancer very similar to 
where we were with heart disease 23 years ago. If you look at 
the animal data, the epidemiological data.
    You know, like in China they have a fraction, 120 times 
less prostate cancer than we have here. But when they begin to 
eat here and live like us, they begin to die like us, not only 
heart disease, but prostate, breast, colon cancer, all kinds of 
other diseases.
    And so I think that we are taking men who have biopsy-
proven cancer, who have decided not to be treated 
conventionally, randomly divided them into two groups. Half of 
them go through our program, half of them do not. And we 
compare them.
    We are doing this in collaboration with Memorial Sloan-
Kettering Cancer Center in New York and at UCSF. And we are 
finding that it seems to be making a difference. And I think 
that if it is true for prostate cancer, it will likely be true 
for breast and colon cancer as well.
    Senator Harkin. How about the step previous, before you 
have biopsy-proven prostate cancer, as a preventative measure?
    Dr. Ornish. Well, clearly, we focused on areas where people 
are sick, to try to show that if you can reverse disease, 
clearly you can prevent it. It may take years to wait for the 
heart attack that does not come or the prostate cancer that 
does not come.
    But if you can take somebody who is already sick and turn 
that around, then clearly it works to prevent it even better.
    In particular with heart disease, that is important 
because, you know, a third of people first find out they have a 
heart problem when they die from it, which of course is not a 
good way to find out. And so prevention is what we really need 
to be talking about.
    You mentioned earlier about teaching our children how to 
eat more healthfully. I think that is really where it has to 
begin. But here again, it really comes down to Congress.
    Your leadership, Senator, and Senator Specter's leadership 
in setting up the Center for Alternative Medicine, the National 
CCAM, is making a huge difference. But if we can now take the 
next step and get legislation passed, it could be a quantum 
breakthrough.
    Senator Harkin. Well, I would like to have some more of 
your thoughts on the legislation. You are mostly talking about 
reimbursement is what you are talking about, I guess, right?
    Dr. Ornish. Well, again, reimbursement is the single most 
important factor in medical practice and medical education. 
Even Dr. Weil talked about the difficulties they are having. 
And, you know, he is very prominent. So we need to provide--it 
is like, you know, what Willy Sutton said, if we can show where 
the money is, I think that the other things will follow. Not at 
the expense of the science.
    And here again, I would like to see two things, in summary. 
More money for research in this area to get the science, to 
help people sort things out. You know, one of the catch-22's is 
that it is very hard to get funding to do these studies, 
because they do not think it is worth doing. And without the 
funding, you cannot show it is worth doing. And if they do not 
think it is worth doing, they do not want to fund it.
    So funding to support this, to do good science, and 
legislation to encourage Medicare to cover programs like this 
and like Dr. Benson's and others, because if these are covered, 
doctors will do it. And until then, it will remain on the 
fringes of medical practice, no matter how good the science is.
    Senator Harkin. Lastly, on a personal note, talking about 
diets and nutrition, I have prided myself on having a good diet 
and good nutrition program for myself and for my wife. But our 
two daughters grew up, and they always cooked our meals. That 
was part of the deal.
    When they were in high school, they had to cook dinner for 
us. Right? We got our own breakfast. And so we had a good 
regimen.
    Well, they are both gone now. So my wife works and I work. 
I get home late. She gets home late. Put something in the 
microwave and just read the ingredients on this stuff.
    Dr. Ornish. I know.
    Senator Harkin. They are awful. So I have gone to health 
food stores and places to look for more--fast food is wrong. 
What do you call it?
    Dr. Ornish. Convenience.
    Senator Harkin. Convenience foods that are quick, that you 
can eat. Now it seems to me that somebody has to start making 
better foods in convenience packages that are more healthy than 
what we are finding. I mean, they are either loaded with fat or 
the sodium level is out of this world.
    I am just wondering. You are on top of all this. Is there 
anything going on that would provide more convenience foods 
that are in accordance with the diets that you and others have 
outlined?
    Dr. Ornish. Well, as a matter of fact, I have worked with 
ConAgro to develop a line of foods--I have consulted with 
them--that fit these guidelines, to try to make it easier for 
people to eat this way. As a scientist, I am trying to do the 
best research I can. But as an educator, I am trying to get 
this out to people who can benefit from it.
    But the great thing about America is supply and demand. And 
as people become more educated about the power of these changes 
in diet and lifestyle, as we get more coverage to make these 
kinds of things available, then consumers will begin demanding 
that. And then manufacturers will begin making them available.
    Senator Harkin. Well, I hope so. There is a dearth of good 
products out there right now for people that need to eat in a 
hurry.
    Dr. Ornish. I agree. I am also working with Web MD, an 
Internet provider, to get this information out worldwide to 
people who can benefit from it. There is a globalization of 
illness that is occurring around the world, as people begin to 
copy our fast foods and so on.
    But we can use that same technology to get information to 
people that can heal them, as opposed to causing them to become 
sick.
    Senator Harkin. OK. Well, thank you very much, Dr. Ornish 
and Mr. Czapliewicz, Dr. Benson, Dr. Straus, whoever else is 
left here.
    Thank you all very much. It has been a very interesting and 
very good hearing.
    Dr. Ornish. Thank you, Senator. I am very grateful.
    Senator Harkin. Again, I want to compliment Dr. Straus and 
his leadership at NCAM and look forward to doing some more 
things in the future in terms of what you have talked about 
here, reimbursement and--I also want to look at some of the 
provisions in mind/body health that we might be able to move 
ahead on, too.
    So thank you all very much for all of your leadership in 
this area. You are truly making a big difference out there. 
Thank you, all.
    Dr. Ornish. Thank you, Senator. So are you.

                         CONCLUSION OF HEARING

    Senator Harkin. Thank you all very much for being here, 
that concludes the hearing. The subcommittee will stand in 
recess subject to the call of the Chair.
    [Whereupon, at 11:26 a.m., Tuesday, March 28, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
